1a
APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
JORGE ALEJANDRO
ROJAS,
Plaintiff-Appellant,
v.

No. 17-55036
D.C. No. 2:15-cv05811-CBM-SS
OPINION

FEDERAL AVIATION
ADMINISTRATION,
Defendant-Appellee.
Appeal from the United States District Court
for the Central District of California
Consuelo B. Marshall, District Judge, Presiding
Argued and Submitted En Banc September 22, 2020
San Francisco, California
March 2, 2021
Before: Sidney R. Thomas, Chief Judge, and Susan
P. Graber, Kim McLane Wardlaw, Johnnie B.
Rawlinson, Consuelo M. Callahan, Milan D. Smith,
Jr., Sandra S. Ikuta, Paul J. Watford, Andrew D.
Hurwitz, Daniel P. Collins, and Patrick J. Bumatay,
Circuit Judges.

2a
Opinion by Judge Watford;
Concurrence by Judge Collins;
Partial Concurrence and Partial Dissent by Judge
Wardlaw;
Partial Concurrence and Partial Dissent by
Chief Judge Thomas;
Partial Dissent by Judge Ikuta;
Partial Concurrence and Partial Dissent by Judge
Bumatay
SUMMARY*
Freedom of Information Act
The en banc court affirmed in part and vacated in
part the district court’s summary judgment in favor of
the Federal Aviation Administration (“FAA”) in a
plaintiff’s Freedom of Information Act (“FOIA”) action
seeking FAA agency records.
FOIA’s Exemption 5 provides that FOIA’s disclosure requirements do not apply to “inter-agency or intra-agency memorandums or letters that would not be
available by law to a party … in litigation with the
agency.” 5 U.S.C. § 552(b)(5). The FAA’s Office of
Chief Counsel informed plaintiff that it was withholding three documents from his FOIA requests under
Exemption 5. The validation documents that the FAA

This summary constitutes no part of the opinion of the
court. It has been prepared by court staff for the convenience of
the reader.
*

3a
sought to withhold were prepared by an outside consultant rather than by an FAA employee.
The en banc court joined six sister circuits that
have recognized some version of the consultant corollary to Exemption 5, and held that the term “intraagency” in § 552(b)(5) included, at least in some circumstances, documents prepared by outside consultants hired by the agency to assist in carrying out the
agency’s functions. The court held that the relevant
inquiry asks whether the consultant acted in a capacity functionally equivalent to that of an agency in creating the document or documents the agency sought
to withhold.
Applying these principles, the en banc court concluded that the consultant, APTMetrics, created the
three documents at issue while performing work in
the same capacity as an employee of the FAA. APTMetrics represented neither its own interests nor
those of any other client in carrying out its work, and
it did not share the documents with anyone outside
the FAA’s Office of Chief Counsel. With respect to the
preparation of the documents, APTMetrics was operating enough like the FAA’s own employees to justify
calling its own communications with the FAA “intraagency.”
Because the documents at issue qualified as intraagency memorandums, the en banc court next considered whether they satisfied Exemption 5’s second requirement that the documents “would not be available by law to a party … in litigation with the agency.”
5 U.S.C. § 552(b)(5). The court, agreeing with the district court, held that two of the three documents listed

4a
in the Vaughn index were protected by the attorney
work-product privilege and thus could not be subject
to discovery in civil litigation with the FAA. A remand, however, was necessary to determine whether
the third document was also protected by privilege;
and the court vacated the district court’s summary
judgment for the FAA as to the third document.
The en banc court addressed plaintiff’s arguments
concerning the adequacy of the FAA’s search for responsive documents. First, the court held that Supreme Court precedent foreclosed plaintiff’s contention that the FAA should have been required to search
APTMetrics’ records for documents responsive to his
FOIA request. Second, the court held that the declarations submitted by the FAA failed to show that it
conducted a search reasonably conducted to uncover
all relevant documents.
The en banc court remanded for further proceedings.
Judge Collins joined in the majority opinion that
adopted the reading of Exemption 5 endorsed by Justice Scalia in his dissenting opinion in U.S. Department of Justice v. Julian, 486 U.S. 1 (1988), and wrote
separately to respond to the dissents’ erroneous contentions that Justice Scalia’s reading of Exemption 5
was “atextual.”
Judge Wardlaw, joined by Chief Judge Thomas
and Judge Hurwitz, concurred in part and dissented
in part. Judge Wardlaw would hold that Exemption 5’s text is crystal clear: documents or communications exchanged with outside consultants do not fall

5a
within that exemption. She agreed with the majority
that the FAA’s search for records was inadequate, and
joined part III of the majority opinion.
Chief Judge Thomas concurred in part and dissented in part. He joined Judge Wardlaw’s dissent in
full, and also agreed with the majority opinion’s holding that the FAA did not meet its burden to show that
it conducted an adequate search for documents responsive to plaintiff’s FOIA request. He wrote separately to observe that, even if the consultant corollary
formed part of Exemption 5, it would not protect the
specific information sought in this case because the
information was required to be maintained and made
publicly available by the agency.
Judge Ikuta, joined by Judges Graber and Callahan, and joined by Judge Bumatay except as to footnote 1, dissented in part. Judge Ikuta disagreed with
the majority’s conclusion that the declaration submitted by the FAA failed to show that the agency conducted a search reasonably calculated to uncover all
relevant documents in response to the FOIA request.
In footnote 1, Judge Ikuta stated that she agreed with
the majority’s interpretation of “intra-agency memorandums or letters” to include documents prepared by
outside consultants hired by the agency to assist its
functions, and she would affirm the summary judgment for the FAA as to the first two withheld documents, and reverse as to the third document for the
reasons stated in the majority opinion.
Judge Bumatay concurred in part and dissented
in part. He would hold that FOIA Exemption 5 does
not cover consultant work product, and by its plain

6a
text, it does not protect APTMetric’s documents from
disclosure. He agreed with the majority that the FAA
was not required to search APTMetric’s records for responsive documents, but agreed with Judge Ikuta’s
dissent that the majority was incorrect in finding that
FAA’s search was inadequate.
COUNSEL
Naomi J. Scotten (argued), Orrick Herrington & Sutcliffe LLP, New York, New York; Michael W. Pearson,
Curry Pearson & Wooten PLC, Phoenix, Arizona;
Robert M. Loeb and Thomas M. Bondy, Orrick Herrington & Sutcliffe LLP, Washington, D.C.; for Plaintiff-Appellant.
Jeffrey E. Sandberg (argued), and Mark B. Stern, Appellate Staff; Hashim M. Mooppan, Deputy Assistant
Attorney General, Washington, D.C.; Alarice M.
Medrano, Assistant United States Attorney; Dorothy
A. Schouten, Chief, Civil Division; United States Attorney’s Office, Los Angeles, California; for Defendant-Appellee.
Katie Townsend, Caitlin Vogus, Adam A. Marshall,
Gunita Singh, and Daniel J. Leon, Reporters Committee for Freedom of the Press, Washington, D.C., for
Amici Curiae Reporters Committee for Freedom of
the Press and 24 Media Organizations.
Gregg P. Leslie, Samuel Turner, and John Dragovits,
First Amendment Clinic, Arizona State University,
Sandra Day O’Connor College of Law, Phoenix, Arizona, for Amicus Curiae Project on Government Oversight.

7a
OPINION
WATFORD, Circuit Judge:
To ensure greater transparency in the operation
of government agencies, the Freedom of Information
Act (FOIA) mandates disclosure of nearly all agency
records upon request, unless the records fall within
one of nine exemptions specified in the Act. See
5 U.S.C. § 552(b)(1)-(9); NLRB v. Sears, Roebuck &
Co., 421 U.S. 132, 136 (1975). This case involves Exemption 5, which provides that FOIA’s disclosure requirements do not apply to “inter-agency or intraagency memorandums or letters that would not be
available by law to a party … in litigation with the
agency.” 5 U.S.C. § 552(b)(5). The main question before us is what the term “intra-agency” means in this
context. Does a document qualify as “intra-agency”
only if the author and recipient are employees of the
same agency? Or does the term also include, at least
in some circumstances, documents prepared by outside consultants hired by the agency to assist in carrying out the agency’s functions? We join six of our
sister circuits in adopting the latter reading of “intraagency,” dubbed by some the “consultant corollary” to
Exemption 5.
I
The plaintiff in this case is Jorge Alejandro Rojas.
In March 2015, Rojas applied to the Federal Aviation
Administration (FAA) for an entry-level position as
an air traffic controller. As part of the application process, he took a computerized test designed to measure
certain attributes deemed relevant to success in the

8a
position, such as self-confidence, stress tolerance, and
teamwork. The parties refer to this test as the “biographical assessment.” The FAA rejected Rojas’s application in a notice that stated the following: “Based
upon your responses to the Biographical Assessment,
we have determined that you are NOT eligible for this
position as a part of the current vacancy announcement.” The notice informed Rojas that the biographical assessment measures “job applicant characteristics that have been shown empirically to predict success as an air traffic controller,” and stated that the
test “was independently validated by outside experts.”
Rojas understandably wanted to learn more about
the FAA’s use of the biographical assessment as a selection tool—in particular, whether the test had been
empirically validated (that is, shown to have the
power to predict successful job performance) as the
FAA claimed. At the time, little was known about the
test, as it had been deployed for the first time during
the previous year’s hiring cycle, in February 2014, at
the recommendation of an outside consulting firm
called APTMetrics. The FAA had hired the firm in
2012 to review the agency’s hiring process, to propose
recommendations for improvement, and to assist the
agency in implementing those improvements. APTMetrics developed the biographical assessment as
part of that work and, after its debut during the 2014
hiring cycle, revised the test for use in the upcoming
2015 hiring cycle. In early fall of 2014, APTMetrics
performed validation work on the revised 2015 version of the test, work that presumably formed the basis for the FAA’s claim that the test had been “independently validated by outside experts.”

9a
Under FOIA, Rojas asked the FAA to produce documents containing “information regarding the empirical validation of the biographical assessment” mentioned in his rejection notice, including “any report
created by, given to, or regarding APTMetrics’ evaluation and creation and scoring of the assessment.”
The FAA assigned Rojas’s request to four different offices within the agency: Air Traffic Organization, FOIA Program Management Branch, Office of
Human Resources, and the Employment and Labor
Law Division of the Office of the Chief Counsel. The
Office of Human Resources informed Rojas that it had
found responsive documents relating to empirical validation of the biographical assessment but was withholding those documents under Exemption 5. The Office of the Chief Counsel similarly informed Rojas that
it had located responsive documents but was withholding them under Exemption 5 as well. Following
Rojas’s administrative appeal of that decision, the Office of the Chief Counsel realized that its search had
mistakenly focused on the 2014 biographical assessment, rather than on the 2015 version of the test that
was the subject of Rojas’s FOIA request. The office
conducted a second search, which produced the three
documents at issue in this appeal. The FAA informed
Rojas that it was withholding all three documents under Exemption 5.
Rojas sued the FAA under FOIA, which authorizes district courts “to enjoin [an] agency from withholding agency records and to order the production of
any agency records improperly withheld from the
complainant.” 5 U.S.C. § 552(a)(4)(B). For reasons
that are unclear from the record, Rojas’s suit does not

10a
challenge the Office of Human Resources’ withholding
of documents under Exemption 5. He challenges only
the Office of the Chief Counsel’s decision to withhold
documents under that exemption.
The FAA bears the burden of establishing that the
documents it seeks to withhold are covered by Exemption 5. See 5 U.S.C. § 552(a)(4)(B); Lahr v. National
Transportation Safety Board, 569 F.3d 964, 973 (9th
Cir. 2009). The FAA sought to meet that burden by
submitting a “Vaughn index,” a document that identifies the records being withheld, the exemption invoked to justify withholding, and the reason why each
document is subject to the claimed exemption. See
Hamdan v. Department of Justice, 797 F.3d 759, 769
n.4 (9th Cir. 2015) (citing Vaughn v. Rosen, 484 F.2d
820 (D.C. Cir. 1973)). The FAA’s Vaughn index described the three documents at issue here. For each,
the FAA identified APTMetrics as the sender and the
FAA’s Office of the Chief Counsel as the recipient;
stated that the documents’ subject matter was development and validation of the 2015 biographical assessment; invoked Exemption 5 as the ground for
withholding; and explained that the documents had
been prepared by APTMetrics at the request of lawyers in the Office of the Chief Counsel in anticipation
of litigation.
The FAA submitted two declarations providing
factual support for its claim that the documents had
been prepared in anticipation of litigation and were
therefore protected by the attorney work-product
privilege. A declaration from a lawyer in the FAA’s
Office of the Chief Counsel explained that in April
2014, after the agency’s use of the biographical

11a
assessment during the 2014 hiring cycle, an unsuccessful applicant filed a putative class action against
the agency alleging discrimination. In November
2014, the Office of the Chief Counsel asked the Chief
Operating Officer of APTMetrics, John Scott, “to summarize elements of his validation work” related to the
revised version of the biographical assessment that
the agency planned to use during the upcoming 2015
hiring cycle. Scott provided summaries of his validation work in December 2014 and January 2015. According to the declaration, those summaries “were
prepared solely at the request and direction of the Office of the Chief Counsel and were not shared with
other elements of the [FAA] outside of the Office of the
Chief Counsel.” Mr. Scott submitted a declaration of
his own confirming that APTMetrics had prepared
“summaries and explanations” of its validation work
at the request of lawyers in the Office of the Chief
Counsel.
On the basis of the Vaughn index and supporting
declarations, the FAA moved for summary judgment.
After reviewing the three documents in camera, as
FOIA permits, see 5 U.S.C. § 552(a)(4)(B), the district
court granted summary judgment for the FAA. The
court held that the documents were properly subject
to withholding under Exemption 5 and rejected Rojas’s challenges to the adequacy of the agency’s search
for responsive documents.
A three-judge panel of our court reversed. Rojas v.
FAA, 927 F.3d 1046 (9th Cir. 2019). The panel divided
on the question whether the documents at issue are
covered by Exemption 5. Over Judge Christen’s dissent, a majority of the panel held that they are not.

12a
The majority declined to adopt the consultant corollary to Exemption 5, which it regarded as inconsistent
with the statute’s plain text and FOIA’s general policy
of fostering broad disclosure of agency records. Id. at
1055-58. Because the validation documents the FAA
sought to withhold were prepared by an outside consultant rather than by an FAA employee, the majority
concluded that the documents do not qualify as “intraagency memorandums.” Id. at 1058. The panel also
held, unanimously, that while the FAA was not obligated to search APTMetrics’ records in response to
Rojas’s FOIA request, the agency failed to establish
that the search it conducted of its own records was
reasonably calculated to locate all responsive documents. Id. at 1053-54, 1059 (majority opinion); id. at
1060 (Christen, J., concurring in part and dissenting
in part). Thus, the panel reversed the district court’s
entry of summary judgment in the FAA’s favor. Id. at
1059-60.
A majority of the non-recused active judges voted
to rehear the case en banc, principally to decide
whether our circuit should adopt or reject the consultant corollary to Exemption 5.
II1
Exemption 5 permits an agency to withhold “inter-agency or intra-agency memorandums or letters
that would not be available by law to a party … in
litigation with the agency.” 5 U.S.C. § 552(b)(5).
Judges Graber, Rawlinson, Callahan, M. Smith, Ikuta,
and Collins join in this part of the majority opinion.
1

13a
Successful invocation of the exemption requires an
agency to show that a document (1) is “inter-agency”
or “intra-agency” in character, and (2) consists of material that would be protected as privileged in the civil
discovery context. Sears, 421 U.S. at 149. We address
each of these requirements in turn.
A
APTMetrics is not a federal agency in its own
right, see 5 U.S.C. §§ 551(1), 552(f)(1), so the three
documents it prepared and sent to the FAA cannot be
deemed “inter-agency” memorandums. At first blush,
documents prepared by APTMetrics would not appear
to qualify as “intra-agency” memorandums either.
“Intra” means “within,” and read in isolation, “the
most natural meaning of the phrase ‘intra-agency
memorandum’ is a memorandum that is addressed
both to and from employees of a single agency.” Department of Justice v. Julian, 486 U.S. 1, 18 n.1 (1988)
(Scalia, J., dissenting). But as is always true when interpreting statutes, statutory context and purpose
matter, and here we think context and purpose suggest that Congress had in mind a somewhat broader
understanding of “intra-agency.”
Read in context, the term “intra-agency” in Exemption 5 does not definitively resolve the interpretive question before us. Even accepting that “intraagency” refers in this context to a document generated
and kept in-house, that still does not tell us who
counts as being in-house for purposes of the exemption’s reach. The term could be read as requiring that
both the author and recipient of the document be employees on the agency’s payroll. But it could just as

14a
plausibly be read to include certain outside consultants whom the agency has hired to work in a capacity
functionally equivalent to that of an agency employee.
Deciding which of these two interpretations of “intra-agency” Congress had in mind should be informed, in our view, by consideration of the purposes
served by Exemption 5. The exemption protects an
agency’s internal communications (as well as communications with other agencies) if those communications would be protected by one of the civil discovery
privileges, such as the attorney-client privilege, the
attorney work-product privilege, or the deliberative
process privilege. See Sears, 421 U.S. at 149. Congress
concluded that shielding privileged communications
from disclosure was desirable because “the ‘frank discussion of legal or policy matters’ in writing might be
inhibited if the discussion were made public,” with the
consequence that the quality of an agency’s decisions
and policies “would be the poorer as a result.” Id. at
150 (quoting S. Rep. No. 89-813, at 9 (1965)). In the
same vein, the Court observed in Sears that “those
who expect public dissemination of their remarks may
well temper candor with a concern for appearances …
to the detriment of the decisionmaking process.” Id.
at 150-51 (quoting United States v. Nixon, 418 U.S.
683, 705 (1974)) (emphasis omitted). In addition,
without the protection afforded by Exemption 5, an
agency’s litigation opponents could obtain under
FOIA the same privileged communications they were
barred from obtaining under civil discovery rules.
Asked whether the statute created such an “anomaly,” the Court said no, stating: “We do not think that
Congress could have intended that the weighty policies underlying discovery privileges could be so easily

15a
circumvented.” United States v. Weber Aircraft Corp.,
465 U.S. 792, 801-02 (1984).
A Congress whose aim was to further the purposes just discussed would not have limited Exemption 5’s coverage to communications authored by
agency employees. Outside consultants would presumably be just as hesitant as agency employees to
engage in frank discussion of legal and policy matters
if they know that their advice and analysis may be
made public, with the same detrimental effect on the
quality of the agency’s decision-making. And an
agency’s litigation opponents could use FOIA to circumvent civil discovery privileges just as effectively
whether the privileged communications to be disclosed were between the agency and its outside consultants or between agency employees. Reading Exemption 5 to exclude communications with outside
consultants altogether, as Rojas urges us to hold,
would require us to assume that Congress saddled
agencies with a strong disincentive to employ the services of outside experts, even when doing so would be
in the agency’s best interests. We see no evidence to
support that assumption in FOIA’s text or its legislative history.
The implausibility of Rojas’s interpretation of the
phrase “intra-agency memorandums”—as mandating
authorship by agency employees—is illustrated perhaps most starkly in the context of an agency’s hiring
of outside counsel to represent it in litigation. Under
ordinary privilege rules, the agency’s litigation opponent could not, of course, demand disclosure of written communications between the agency and its outside attorney or production of the attorney’s work-

16a
product. Yet under Rojas’s reading of Exemption 5, all
of those otherwise privileged materials would be subject to public disclosure under FOIA—at the request
of the agency’s litigation opponent or anyone else. It
seems doubtful that Congress intended the term “intra-agency” in Exemption 5 to exclude outside attorneys, because doing so would, for all practical purposes, preclude agencies from relying on the services
of outside counsel in most instances. Indeed, even Rojas appears to acknowledge that outside attorneys
must be deemed “within” an agency for purposes of
Exemption 5, but he offers no principled basis on
which an agency’s outside attorneys could be distinguished from other outside consultants hired to assist
in carrying out the agency’s functions.
Given these considerations, we do not agree that
Rojas’s reading of the term “intra-agency” is the only
textually permissible interpretation of Exemption 5’s
scope. While we are mindful of our obligation to construe FOIA’s exemptions narrowly, we must at the
same time give them “a fair reading,” just as we would
any other statutory provision. Food Marketing Institute v. Argus Leader Media, 139 S. Ct. 2356, 2366
(2019). In our view, a fair reading of the term “intraagency” is the one acknowledged by the Supreme
Court in Department of Interior v. Klamath Water Users Protective Association, 532 U.S. 1 (2001). There,
without accepting or rejecting the consultant corollary, the Court noted the then-uniform view of lower
courts that, in certain circumstances, “consultants
may be enough like the agency’s own personnel to justify calling their communications ‘intra-agency.’” Id.
at 12. As Justice Scalia stated in Julian, that reading
of Exemption 5 is not only “textually possible” but also

17a
“much more in accord with the purpose of the provision.” Julian, 486 U.S. at 18 n.1 (Scalia, J., dissenting). We therefore join the six other circuits that have
recognized some version of the consultant corollary to
Exemption 5.2
As for identifying those consultants who “may be
enough like the agency’s own personnel to justify calling their communications ‘intra-agency,’” the Supreme Court’s decision in Klamath provides helpful
guidance. Although the Court did not endorse the consultant corollary, it distilled general principles
gleaned from lower court decisions that we think define the outer boundaries of Exemption 5’s reach. To
be deemed “within” an agency for purposes of Exemption 5, a consultant must be hired by the agency to
perform work in a capacity similar to that of an employee of the agency, such that “the consultant functions just as an employee would be expected to do.”
Klamath, 532 U.S. at 10-11. That means the consultant must “not represent an interest of its own, or the
interest of any other client, when it advises the
See Soucie v. David, 448 F.2d 1067, 1078 n.44 (D.C. Cir. 1971);
Government Land Bank v. General Services Administration, 671
F.2d 663, 665 (1st Cir. 1982); Lead Industries Association, Inc. v.
OSHA, 610 F.2d 70, 83 (2d Cir. 1979); Hanson v. U.S. Agency for
International Development, 372 F.3d 286, 292-93 (4th Cir. 2004);
Wu v. National Endowment for Humanities, 460 F.2d 1030, 1032
(5th Cir. 1972); Stewart v. Department of Interior, 554 F.3d 1236,
1245 (10th Cir. 2009); cf. Brockway v. Department of Air Force,
518 F.2d 1184, 1194 (8th Cir. 1975) (holding that Exemption 5
includes some witness statements provided to the Air Force as
part of an investigation). The only circuit arguably to question
the validity of the consultant corollary thus far is the Sixth. See
Lucaj v. FBI, 852 F.3d 541, 548-49 (6th Cir. 2017).
2

18a
agency that hires it.” Id. at 11. Its obligations must be
solely “to truth and its sense of what good judgment
calls for.” Id.
Because the scope of Exemption 5 turns on the
character of the document at issue—it is the memorandum or letter that must be “intra-agency”—these
principles should be applied on a document-by-document basis. The relevant inquiry asks not whether
the “consultant functions just as an employee would
be expected to do” in a general sense, but rather
whether the consultant acted in a capacity functionally equivalent to that of an agency employee in creating the document or documents the agency seeks to
withhold.
Applying these general principles here, we conclude that APTMetrics created the three documents
at issue while performing work in the same capacity
as an employee of the FAA. The FAA’s Office of the
Chief Counsel asked APTMetrics to prepare summaries of its validation work to assist the agency’s lawyers in defending the validity of the 2015 biographical
assessment. In creating each of the three documents,
APTMetrics functioned no differently from agency
employees who, although possessing less expertise,
could have been tasked by the FAA’s lawyers with
preparing the same summaries. See Rojas, 927 F.3d
at 1063 (Christen, J., concurring in part and dissenting in part). APTMetrics represented neither its own
interests nor those of any other client in carrying out
its work, and it did not share the documents with anyone outside the FAA’s Office of the Chief Counsel,
just as agency employees would have been expected to
keep sensitive documents of this sort in-house. With

19a
respect to preparation of the summaries, then, APTMetrics was operating enough like the FAA’s own employees to justify calling its communications with the
FAA “intra-agency.” See Klamath, 532 U.S. at 12.3
B
Because we conclude that the documents at issue
qualify as intra-agency memorandums, we must next
consider whether they satisfy Exemption 5’s second
requirement: that the documents “would not be available by law to a party … in litigation with the agency.”
5 U.S.C. § 552(b)(5). This phrase has been construed
to incorporate civil discovery privileges including, as
relevant here, the attorney work-product privilege.
See Sears, 421 U.S. at 148-49. After conducting our
own in camera review of the documents at issue, we
agree with the district court that two of the three documents listed in the Vaughn index are protected by
the attorney work-product privilege and thus would
not be subject to discovery in civil litigation with the
FAA. However, a remand is necessary to determine

A different result might follow if the documents at issue
had been the validation studies themselves. According to the
FAA, APTMetrics performed the validation work in its capacity
as an “outside expert” hired to provide independent validation of
the 2015 biographical assessment. As APTMetrics’ outsider status was essential to this work, APTMetrics could not have acted
in a capacity equivalent to that of the FAA’s own employees
when it validated the test. Put differently, it is far from clear
that an agency may tout the independent validation provided by
“outside experts” and at the same time claim that those experts
are “within” the agency for purposes of Exemption 5.
3

20a
whether the third document is also protected by the
privilege.
A document is privileged as attorney work-product when it was prepared (1) “in anticipation of litigation or for trial,” and (2) “by or for another party or by
or for that other party’s representative.” In re Grand
Jury Subpoena, 357 F.3d 900, 907 (9th Cir. 2004).
As to the first requirement, the FAA’s declarations adequately explained why two of the three documents were prepared in anticipation of litigation. In
April 2014, an unsuccessful applicant for a position as
an air traffic controller filed a complaint against the
FAA on behalf of a class of other unsuccessful applicants. In November 2014, lawyers in the FAA’s Office
of the Chief Counsel asked APTMetrics to prepare
“summaries and explanations” of the work it had done
to validate the revised 2015 version of the biographical assessment. According to the declarations submitted by the FAA, APTMetrics sent its initial response to the Office of the Chief Counsel in December
2014 and followed up with a supplemental response
in January 2015.
As Rojas notes, the April 2014 complaint challenged the FAA’s use of the 2014 version of the biographical assessment, not the 2015 version of the test
that is the subject of the documents at issue. But the
FAA planned to use a revised version of the 2014 test
to perform a similar screening function during the
2015 hiring cycle, so it was reasonable for the agency
to anticipate litigation concerning use of the revised
2015 biographical assessment as well. The documents
that APTMetrics sent to the Office of the Chief

21a
Counsel in December 2014 and January 2015 were
prepared in anticipation of that litigation.
The FAA’s declarations do not address the one remaining document, which is described in the Vaughn
index as a document prepared by APTMetrics dated
September 2, 2015. The declaration from the FAA’s
lawyer states that the Office of the Chief Counsel received responses to its request for summaries of APTMetrics’ validation work in December 2014 and January 2015. It makes no mention of a third document
received at a later date. Moreover, in camera review
of the document suggests that it may have been
drafted as a response to a request for information
from an outside third party, rather than as an internal memorandum from APTMetrics to the FAA’s lawyers. As a result, on this record the FAA failed to carry
its burden of establishing that this document was prepared in anticipation of litigation.
Rojas objects that, even if APTMetrics’ December
2014 and January 2015 summaries qualify as attorney work-product, the firm did not conduct the underlying validation studies in anticipation of litigation.
But application of the attorney work-product privilege does not turn on whether the records underlying
the summaries were created in anticipation of litigation. What matters is that the summaries themselves
were created in anticipation of litigation, since those
are the documents the FAA seeks to withhold.
Regarding the privilege’s second requirement, the
December 2014 and January 2015 summaries were
prepared for the FAA by APTMetrics. The work-product privilege covers not only documents prepared by a

22a
party but also documents prepared by others acting
on the party’s behalf. United States v. Nobles, 422
U.S. 225, 238-39 & n.13 (1975); see also Fed. R. Civ.
Proc. 26(b)(3)(A) (listing a party’s “consultant” among
those who may prepare a document subject to workproduct protection). That the summaries were prepared by APTMetrics on the FAA’s behalf, rather
than by the FAA itself, poses no barrier to application
of the work-product privilege.
Because the December 2014 and January 2015
validation summaries are intra-agency memorandums that would be subject to the attorney workproduct privilege in litigation with the FAA, the FAA
properly withheld them under Exemption 5. We vacate the district court’s entry of summary judgment
for the FAA as to the third document, dated September 2, 2015, and remand for further proceedings with
respect to that document.
III4
Rojas raises two arguments concerning the adequacy of the FAA’s search for responsive documents.
We agree with the three-judge panel’s unanimous resolution of both arguments.
First, Rojas contends that the FAA should have
been required to search APTMetrics’ records for documents responsive to his FOIA request, since such a
search would undoubtedly have turned up the data
Chief Judge Thomas and Judges Wardlaw, Rawlinson, M.
Smith, Hurwitz, and Collins join in this part of the majority opinion.
4

23a
underlying APTMetrics’ validation work as well as
the validation studies themselves, rather than just
the summaries of those studies included in the FAA’s
Vaughn index. Like the three-judge panel, we are
sympathetic to Rojas’s argument. See Rojas, 927 F.3d
at 1059. It seems counterintuitive to hold that an outside consultant may be deemed “within” a federal
agency for purposes of invoking Exemption 5, but that
documents created by the consultant on the agency’s
behalf may be outside the scope of the search FOIA
requires. Nonetheless, existing Supreme Court precedent forecloses Rojas’s contention.
FOIA authorizes a court to compel disclosure of
“agency records.” 5 U.S.C. § 552(a)(4)(B). The Supreme Court has held that agency records must have
been created or obtained by the agency and must be
in the agency’s control at the time the FOIA request
is made. Department of Justice v. Tax Analysts, 492
U.S. 136, 144-45 (1989). Documents that are not in an
agency’s possession do not constitute “agency records”
even if the agency could have obtained them by asking
a third party to produce them. Id. at 144. Given this
precedent, the FAA properly limited the scope of its
search to records in the agency’s possession; it had no
obligation to search records in APTMetrics’ possession.
Second, Rojas argues that the declarations submitted by the FAA fail to show that it “conducted a
search reasonably calculated to uncover all relevant
documents,” as our cases require. Zemansky v. EPA,
767 F.2d 569, 571 (9th Cir. 1985). To satisfy this requirement, the FAA’s declarations had to be “nonconclusory” and “relatively detailed in their description

24a
of the files searched and the search procedures” followed. Id. at 573. But here, the FAA submitted just
one declaration describing the scope of the search, and
it stated only that the search conducted by the Office
of the Chief Counsel “was reasonably calculated to obtain responsive records because the attorneys who
provided legal advice related to the revisions to the
[air traffic controller] hiring process were asked to review their records.”
The FAA’s declaration falls short of what our
cases require because it offers no details about how
the search was conducted. For example, it does not
describe, even in general terms, the number of attorneys involved, the search methods they used, the body
of records they examined, or the total time they spent
on the search. Cf. Lane v. Department of Interior, 523
F.3d 1128, 1139 (9th Cir. 2008); Citizens Commission
on Human Rights v. FDA, 45 F.3d 1325, 1328 (9th Cir.
1995). Without details such as these, we are in no position to conclude that the agency’s search was reasonably calculated to locate all responsive records. See
Steinberg v. Department of Justice, 23 F.3d 548,
551-52 (D.C. Cir. 1994) (declaration found inadequate
because it “fail[ed] to describe in any detail what records were searched, by whom, and through what process”).
*

*

*

We join six of our sister circuits in adopting the
consultant corollary to Exemption 5, and we hold that
the FAA properly withheld two of the three documents at issue here under that exemption. However,
the FAA did not establish that the remaining

25a
document is protected by the attorney work-product
privilege, and the agency failed to show that it conducted a search reasonably calculated to locate all
documents responsive to Rojas’s FOIA request. We
vacate the district court’s entry of summary judgment
in the FAA’s favor and remand for further proceedings consistent with this opinion.
Rojas’s motion for judicial notice (Dkt. No. 7) is
DENIED.
AFFIRMED in part, VACATED in part, and
REMANDED for further proceedings.
The parties shall bear their own costs.
COLLINS, Circuit Judge, concurring:
I concur in the majority opinion, which adopts the
reading of Exemption 5 endorsed by Justice Scalia
(joined by two other Justices) in his dissenting opinion in United States Department of Justice v. Julian,
486 U.S. 1 (1988). Under that reading, Exemption 5’s
reference to “intra-agency memorandums” extends to
“one that has been received by an agency, to assist it
in the performance of its own functions, from a person
acting in a governmentally conferred capacity,” such
as a “consultant to the agency.” Id. at 18 n.1 (Scalia,
J., dissenting).1 I write separately to respond to the
In Julian, the Supreme Court held that, even assuming
that the documents in question were “‘inter-agency’ records for
purposes of Exemption 5,” see 486 U.S. at 11 n.9, they were not
exempt from disclosure because, at least as to the requesters in
that case, the additional requirements of Exemption 5 were not
met, see id. at 11-14. Justice Scalia dissented from that latter
1

26a
dissents’ erroneous contentions that Justice Scalia’s
reading of Exemption 5 is “atextual,” see Wardlaw
Dissent at 33; that it “rewrites” Exemption 5, see id.;
that it uses “legislative purpose to override statutory
text,” see Bumatay Dissent at 58; and that, ultimately, he (and we) “simply made it up,” id. at 61.
I
The relevant text of Exemption 5 states that
FOIA’s disclosure requirements do not apply to “interagency or intra-agency memorandums or letters that
would not be available by law to a party other than an
agency in litigation with the agency.” 5 U.S.C.
§ 552(b)(5). The dissents assume that, by using the
term “intra-agency,” the statute is “crystal clear” in
referring only to memoranda prepared by “‘employees
of a single agency,’” see Wardlaw Dissent at 35, 36
(emphasis added) (citation omitted), and “leave[s] no
room for documents created by those outside of an
agency’s employment,” see Bumatay Dissent at 53
(emphasis added). But as Justice Scalia recognized, to
the extent that this employment-based reading might
seem to be the “most natural meaning of the phrase
‘intra-agency memorandum,’” that is true only if one
examines that phrase “[a]part from its present context.” Julian, 486 U.S. at 18 n.1 (Scalia, J., dissenting)
(emphasis added). Here, there are two features of the
holding, and as a result, his dissent had to address the issue of
whether Exemption 5 was inapplicable on the alternative
ground that the documents were “not ‘inter-agency or intraagency memorandums’ within the meaning of Exemption 5.” Id.
at 18 n.1 (Scalia, J., dissenting); see also id. at 11 n.9 (majority
opinion) (majority did “not find it necessary” to reach this issue).

27a
statutory text that, considered in context, point away
from the dissents’ narrow, employment-based reading
of Exemption 5.
First, the dissents overlook the fact that the actual words of the statute require only that the “memorandum[]” be “intra-agency,” not necessarily that the
authors and recipients be formal employees of that
agency. 5 U.S.C. § 552(b)(5) (emphasis added). As the
Supreme Court recognized in Department of the Interior v. Klamath Water Users Protective Ass’n, 532 U.S.
1 (2001), this feature of the statutory language plainly
allows for a reading under which “consultants may be
enough like the agency’s own personnel to justify calling their communications ‘intra-agency.’” Id. at 12
(emphasis added).2 Thus, while the Court in Klamath
did not decide whether Justice Scalia’s reading of Exemption 5 was correct, see 532 U.S. at 12 (specifically
reserving the question), the Court recognized that, at
the very least, Justice Scalia was right in contending
that his view rested on a “permissible … reading of
the statute,” Julian, 486 U.S. at 18 n.1 (Scalia, J. dissenting) (emphasis added). As the Klamath Court explained, the reason why consultants might be enough
like
employees
“to
justify
calling
their
The Supreme Court’s apt phrasing of this alternative permissible reading refutes the dissents’ strawman arguments that
this construction rests either on a “geographical” or “location”
condition, see Bumatay Dissent at 55 n.5, or on the view that any
document in the agency’s possession (from any source) is, without more, an “intra-agency” memorandum, see Wardlaw Dissent
at 44-44. Nothing in Justice Scalia’s dissent in Julian, or in the
Supreme Court’s description of his view in Klamath, adopts the
dissents’ caricatures.
2

28a
communications ‘intra-agency’” is that “the consultant does not represent an interest of its own, or the
interest of any other client, when it advises the
agency that hires it. Its only obligations are to truth
and its sense of what good judgment calls for, and in
those respects the consultant functions just as an employee would be expected to do.” 532 U.S. at 11-12 (emphasis added).3 Accordingly, the dissents’ contention
that the words of the statute “clearly” and “precisely”
require authorship by a formal employee—as opposed
to someone acting in some other “governmentally conferred capacity,” Julian, 486 U.S. at 18 n.1 (Scalia, J.,
dissenting)—is simply incorrect. See Wardlaw Dissent at 35-35; Bumatay Dissent at 35-36.4
Second, the dissents overlook the remainder of
the statutory language in Exemption 5, which further
elucidates the types of documents protected by that
provision. The intra-agency memorandums covered
by Exemption 5 are those “that would not be available
by law to a party other than an agency in litigation
with the agency.” 5 U.S.C. § 552(b)(5) (emphasis
added). As the text suggests, this language “simply
By contrast, Klamath held that the same was not true with
respect to a self-interested party who communicates with an
agency to further its own, independent interests, and such a
party’s communications with the agency thus could not be said
to be “intra-agency.” 532 U.S. at 12-13.
3

For the same reason, Judge Bumatay is wrong in suggesting that it is “not clear how else Congress could have expressed
its rejection” of Justice Scalia’s view. See Bumatay Dissent at 60.
Had Congress wanted to limit the excluded memoranda to only
those authored by agency “employees,” it could certainly have
added language specifically stating that.
4

29a
incorporates civil discovery privileges.” United States
v. Weber Aircraft Corp., 465 U.S. 792, 799 (1984); see
also NLRB v. Sears, Roebuck & Co., 421 U.S. 132, 154
(1975) (“It is equally clear that Congress had the attorney’s work-product privilege specifically in mind
when it adopted Exemption 5[.]”). Consequently, in
determining whether a communication is within the
agency for purposes of Exemption 5, it makes sense to
consider whether the communication to the agency is
from a person whose “governmentally conferred capacity,” Julian, 486 U.S. at 18 n.1 (Scalia, J., dissenting), is one that can bring it within the agency’s litigation privileges. On that score, it is highly relevant that
“there is no question that litigants need not produce
materials covered by the attorney-client privilege or
documents that constitute attorney work-product, including those prepared by the party’s agents and consultants.” Rojas v. FAA, 927 F.3d 1046, 1062 (9th Cir.
2019) (Christen, J., concurring in part and dissenting
in part) (emphasis added) (collecting cases).5
The dissents nonetheless argue that Exemption 5
should be restricted to employee-authored memoranda because, unlike Exemptions 4 and 8, the text of
Exemption 5 does not expressly refer to documents
from non-employees. See Wardlaw Dissent at 35-36;
Bumatay Dissent at 58 n.6. But it is of no relevance
that the very different categories of documents
Contrary to what the dissents suggest, this does not mean
that the term “‘intra-agency’ does no work at all.” See Bumatay
Dissent at 55 n.5; see also Wardlaw Dissent at 44. It simply
means that, in choosing between two permissible readings of “intra-agency,” one should not lose sight of the entirety of the statutory language and what it reveals about the statute’s purpose.
5

30a
covered by Exemption 4, 5 U.S.C. § 552(b)(4) (“trade
secrets and commercial or financial information obtained from a person and privileged or confidential”),
and Exemption 8, id. § 552(b)(8) (matters “contained
in or related to examination, operating, or condition
reports prepared by, on behalf of, or for the use of an
agency responsible for the regulation or supervision
of financial institutions”), use language that includes
various types of documents created by persons that
everyone would agree are outsiders. Exemption 5 does
not follow the same approach and therefore would not
be expected to use similar language. It instead applies
to “intra-agency memorandums,” and the question
here is what communications by whom and for what
purpose count as such. Put another way, the fact that
Exemption 5 does not broadly sweep in certain categories of outsider-created documents does not somehow mean that only employee-authored documents
count as “intra-agency” documents. Because the
wording and aim of the provisions are so different,
this is not a situation in which Congress otherwise
used very similar language in multiple different provisions, but then chose to omit a particular term in
one of those multiple instances. Cf. Russello v. United
States, 464 U.S. 16, 23 (1983). Here, the wording of
the three exemptions is so completely dissimilar that
the comparative inference the dissents try to draw is
unwarranted.
The dissents are thus wrong in contending that
Exemption 5’s reference to “intra-agency memorandums” excludes, as a textual matter, the broader
reading of Exemption 5 adopted by Justice Scalia in
Julian.

31a
II
Moreover, as Justice Scalia also recognized, his
refusal to read Exemption 5 as limited to employeeauthored documents is not only a “permissible” reading but a “desirable” one. Julian, 486 U.S. at 18 n.1
(Scalia, J., dissenting). Limiting the provision to only
those documents authored by formal employees “excludes many situations where Exemption 5’s purpose
of protecting the Government’s deliberative process is
plainly applicable.” Id. It is therefore “textually possible and much more in accord with the purpose of the
provision, to regard as an intra-agency memorandum
one that has been received by an agency, to assist it
in the performance of its own functions, from a person
acting in a governmentally conferred capacity other
than on behalf of another agency.” Id. And in the case
before us, as in Julian, “[h]ere we have … memorand[a] that fit[] readily within this definition.” Id.
The dissents contend that this consideration of
the “purpose” of Exemption 5 disregards “the textualist revolution,” see Wardlaw Dissent at 38, and
amounts to an “‘escape route from the prison of the
text,’” see Bumatay Dissent at 54 (quoting Antonin
Scalia & Bryan A. Garner, Reading Law: The Interpretation of Legal Texts 19 (2012) (“Reading Law”)).
These charges are unfounded, as is the contention
that Justice Scalia in Julian betrayed the very “principles that [he] spent a lifetime advocating,” see id. at
12.
The “fair reading” method of textualism that Justice Scalia endorsed “requires an ability to comprehend the purpose of the text, which is a vital part of

32a
its context.” Reading Law, supra, at 33. “But the purpose is to be gathered only from the text itself, consistently with the other aspects of its context.” Id.
(emphasis added). Here, of course, the purpose of Exemption 5 to protect the Government’s litigation privileges is express on the face of the statute itself, which
explicitly describes the exemption in terms of when a
document “would not be available by law to a party …
in litigation with the agency.” 5 U.S.C. § 552(b)(5). It
is no lapse into purposivism to insist that, in choosing
among the permissible readings that the text will
bear, a “textually permissible interpretation that furthers rather than obstructs the [statute’s] purpose
should be favored.” Reading Law, supra, at 63. The
dissents’ employment-based reading of “intra-agency
memorandums” would plainly obstruct Exemption 5’s
purpose to protect the Government’s litigation privileges, and because there is a permissible reading of
the text that avoids this outcome, it is to be preferred.6

Judge Bumatay is also wide of the mark in chastising the
majority for supposedly “rel[ying] on legislative history to determine Congress’s purpose in enacting FOIA exemptions.” See
Bumatay Dissent at 59. The referenced portion of the majority
opinion quotes a Supreme Court case identifying the “purpose”
of Exemption 5 based on the Supreme Court’s reliance on legislative history. See Maj. Opin. at 13-14 (quoting Sears, 421 U.S.
at 150). I share Justice Scalia’s criticism of the use of legislative
history, but as a judge of an “inferior Court[]” to the “one supreme Court,” see U.S. CONST. art. III, § 1, I cannot fault the
majority for faithfully following controlling Supreme Court precedent telling us what the purpose of Exemption 5 is, even if that
precedent relies on legislative history. And, as I have explained,
the text of Exemption 5 itself amply confirms the Supreme
Court’s point in Sears that Exemption 5’s purpose is to protect
6

33a
Neither dissent seriously disputes that the employee-only reading of Exemption 5 would impede its
express purpose by, for example, requiring disclosure
of attorney-client communications with any outside
counsel. Judge Bumatay instead sidesteps the problem by noting that attorney-client materials are not
at issue on the particular facts of this case and that
the FAA presumably does not rely on outside counsel.
See Bumatay Dissent at 62-63. But FOIA has a wide
reach, and there are entities (such as, for example, the
FDIC) that count as “agencies” for purposes of FOIA
and that use outside counsel frequently enough to
have written guidelines on the subject. See FDIC, “Information for Prospective Outside Counsel,”
<https://www.fdic.gov/buying/legal/ocbrochure/information-for-prospective- outside-counsel.pdf>.7
Judge Wardlaw, by contrast, does not avoid the
implications of the employee-only reading of Exemption 5. Instead, to the extent that this reading would
allow FOIA to vitiate “even attorney-client materials,” Judge Wardlaw views that as simply the price to
pay to “ensure[] that the workings of the Executive
confidential communications protected by “civil discovery privileges.” See Maj. Opin. at 13.
Judge Bumatay suggests that the implications of his position may not be as ominous as they seem for such agencies, because he speculates that maybe all of their outside counsel are
actually formally designated as “special Government employees.” See Bumatay Dissent at 63 n.9. However, he cites nothing
to support this speculation, which seems at odds with the FDIC’s
outside-counsel handbook as well as with the applicable FDIC
regulations, which designate them as “contractors.” See 12
C.F.R. pt. 366.
7

34a
Branch are transparent to the American people.” See
Wardlaw Dissent at 44-46. Indeed, Judge Wardlaw
erroneously disregards the purpose of Exemption 5 altogether, treating it as always subordinate to FOIA’s
overarching aim of disclosure—so much so that, under her view, we must adopt any pro-disclosure reading of the text, apparently without regard to any other
textual canons. See id. at 41. This flawed analysis
overlooks the fact that FOIA’s “exemptions are as
much a part of FOIA’s purposes and policies as the
statute’s disclosure requirement.” Food Mktg. Inst. v.
Argus Leader Media, 139 S. Ct. 2356, 2366 (2019)
(simplified); see also Reading Law, supra, at 168
(“[L]imitations on a statute’s reach are as much a part
of the statutory purpose as specifications of what is to
be done.”). And here, of course, it is the text of an exemption that is at issue.
III
Because Justice Scalia’s reading of Exemption 5
is both “textually possible and much more in accord
with the purpose of the provision,” Julian, 486 U.S. at
18 n.1 (Scalia, J., dissenting), I agree with the majority’s endorsement of that reading. And the dissents
are thus wrong in insisting that the statutory text requires this court to create a 6-1 circuit split by jettisoning 50 years of settled case law that Congress has
never seen fit to reject.8 Cf. Monessen Sw. Ry. Co. v.
Judge Wardlaw wrongly contends that the Sixth Circuit in
Lucaj v. FBI, 852 F.3d 541 (6th Cir. 2017), “cast serious doubt on
whether the consultant corollary can be found in Exemption 5’s
text.” See Wardlaw Dissent at 39. The target of the Sixth Circuit’s criticism was the distinct (and much broader) “commoninterest doctrine,” on which the FBI had relied in that case. 852
8

35a
Morgan, 486 U.S. 330, 338 (1988) (“Congress’ failure
to disturb a consistent judicial interpretation of a
statute may provide some indication that Congress at
least acquiesces in, and apparently affirms, that interpretation.” (simplified)).
WARDLAW, Circuit Judge, with whom THOMAS,
Chief Judge, and HURWITZ, Circuit Judge, join, concurring in part and dissenting in part:
Less than two years ago, the Supreme Court
reemphasized that federal courts must interpret and
apply FOIA in accordance with that statute’s plain
text and structure. See Food Mktg. Inst. v. Argus
Leader Media, 139 S. Ct. 2356, 2362-63 (2019). That
lesson rings particularly true when, as here, FOIA’s
plain text aligns with FOIA’s presumption of government transparency. See Milner v. Dep’t of Navy, 562
U.S. 562, 571 (2011). But today, the majority ignores
these principles, embraces an atextual “consultant
corollary” doctrine, and, in doing so, rewrites FOIA
F.3d at 547-48. In rejecting the FBI’s contention, the Sixth Circuit reasoned that “when the Department of the Interior made
the same argument in Klamath, the Supreme Court rejected it.”
Id. at 548. Given that the Supreme Court in Klamath expressly
declined to reject the so-called “consultant corollary,” the “same
argument” that was rejected by both the Sixth Circuit and the
Supreme Court cannot have been that doctrine. Rather, as the
Sixth Circuit explained, it and the Supreme Court rejected the
view “‘that “intra-agency” is a purely conclusory term, just a label to be placed on any document the Government would find it
valuable to keep confidential’”—which is a fair description of the
common-interest doctrine. Id. (quoting Klamath, 532 U.S. at 12).
As a result, with today’s en banc decision, there is now no circuit
split on the “consultant corollary.”

36a
Exemption 5. For these reasons, I respectfully dissent.1
I.
FOIA grants the public a qualified statutory right
of access to federal agency “records.” See 5 U.S.C.
§ 552(a)(3)(A), (b). Thus, when a member of the public
“requests” records from an agency, the agency must
disclose those records “unless they fall within one of
nine exemptions.” Milner, 562 U.S. at 565.
Exemption 5, at issue here, shields from disclosure “inter-agency or intra-agency memorandums or
letters that would not be available by law to a party
other than an agency in litigation with the agency … ”
5 U.S.C. § 552(b)(5). By its plain terms then, this exemption applies only if the “communication” being
sought is “inter-agency or intra-agency.” Dep’t of Interior v. Klamath Waters Users Protective Ass’n, 532
U.S. 1, 9 (2001). The majority rightly acknowledges
that the documents sought here are not “interagency” because APTMetrics—the outside consulting
firm that prepared these documents—is “not a federal
agency in its own right.” Maj. Op. at 12. Thus, this
case hangs on whether the documents APTMetrics
prepared and transmitted to the FAA count as “intraagency” memorandums or letters.”
In answering that question, the “proper starting
point lies in a careful examination of the ordinary
meaning and structure of the law itself.” Argus
Because I agree with the majority that the FAA’s search
for records was inadequate, I join part III of the majority opinion.
1

37a
Leader, 139 S. Ct. at 2364. We therefore turn to
FOIA’s text. FOIA itself defines the term “agency.” 5
U.S.C. §§ 551(1), 552(f). “With exceptions not relevant
here,” that word “means ‘each authority of the Government of the United States,’ and ‘includes any executive department, military department, Government
corporation, Government controlled corporation, or
other establishment in the executive branch of the
Government …, or any independent regulatory
agency.’” Klamath, 532 U.S. at 9 (quoting 5 U.S.C.
§§ 551(1), 552(f)). Nothing in this definition provides
a textual hook for thinking of outside contractors as
part of a federal agency.
As for “intra,” FOIA nowhere defines that term.
“So, as usual” and as with other “undefined terms in
FOIA[,]” we look to this term’s “ordinary, contemporary, common meaning [] when Congress enacted
FOIA in 1966.” Argus Leader, 139 S. Ct. at 2362 (internal quotation marks and citations omitted). Much
as it does now, the term “intra” then meant “in” or
“within,” Black’s Law Dictionary 957 (Rev. 4th Ed.
1968); Webster’s Seventh New Collegiate Dictionary
444 (1961), or perhaps “in the interior,” Webster’s Second New Int’l Dictionary of the Eng. Language 1302
(1959). Coupled with FOIA’s definition of “agency,”
the term “intra-agency” clearly signals the idea of being “in” or “within” a federal agency. The question
then becomes what Congress meant when it joined
that understanding of “intra-agency” to the words
“memorandums or letters.”
In this regard, the Supreme Court has acknowledged that “the most natural meaning of the phrase
‘intra-agency memorandum’ is a memorandum that is

38a
addressed both to and from employees of a single
agency.” Klamath, 532 U.S. at 9 (internal quotation
marks and citation omitted). In other words, intraagency memorandums and letters are circulated
within—and only within—an agency. This makes
good sense, for “[n]either the terms of [Exemption 5]
nor the statutory definitions say anything about communications with outsiders.” Id.; see also John C.
Brinkerhoff Jr., FOIA’s Common Law, 36 Yale J. on
Reg. 575, 583 (2019) (“It is doubtful that any reasonable reading of ‘inter-agency or intra-agency’ could
encompass third parties.”).
Exemption 5’s silence on communications and
documents from outsiders is especially notable because other FOIA exemptions explicitly include such
communications and documents. Exemptions 4 and 8
expressly encompass information generated outside
of a federal agency. See 5 U.S.C. § 552(b)(4) (permitting the withholding of “trade secrets and commercial
or financial information obtained from a person and
privileged or confidential” (emphasis added)); id.
§ 552(b)(8) (shielding from disclosure information
“contained in or related to examination, operating, or
condition reports prepared by, on behalf of, or for the
use of an agency responsible for the regulation or supervision of financial institutions” (emphasis added)).
Congress thus knew how to specify that FOIA exemptions cover documents from outside third parties, and
it did so in these other exemptions. See Dep’t of Homeland Sec. v. MacLean, 574 U.S. 383, 392 (2015). That
Exemptions 4 and 8 explicitly speak to this issue—but
Exemption 5 does not—makes clear that Exemption 5
applies only to records that originate and remain inside the federal government.

39a
What’s more, reading “intra-agency memorandums or letters” to cover the exchange of documents
within a federal agency runs parallel to the judicial
interpretation of “inter-agency … memorandums or
letters.” With the word “inter-agency,” “Congress
plainly intended to permit one agency possessing decisional authority to obtain written recommendations
and advice from a separate agency not possessing
such decisional authority without requiring that the
advice be any more disclosable than similar advice received from within the agency.” Renegotiation Bd. v.
Grumman Aircraft Eng’g Corp., 421 U.S. 168, 188
(1975). Congress thus permitted the withholding of
memorandums or letters exchanged “between” agencies, just as its use of the word “intra-agency” allows
for the withholding of memorandums or letters exchanged “within” agencies.
In short, Exemption 5’s text is crystal clear: documents or communications exchanged with outside
consultants do not fall within that exemption. For
“outside consultants” are, by definition, not “within” a
federal agency. They are independent contractors,
hired to assist an agency with a finite task that the
agency has decided to outsource. Indeed, APTMetrics
and its employees may have worked alongside the
FAA’s employees in this case, but it and its employees
are not an arm of the Executive Branch. Our judicial
inquiry should thus be at an end. Argus Leader, 139
S. Ct. at 2364.
II.
“So where did the [consultant corollary] come
from?” Id. (emphasis in original). The answer is a

40a
piece of untethered dicta (Footnote 44 to be exact) in
a D.C. Circuit case from the early 1970’s. See Soucie
v. David, 448 F.2d 1067, 1078 n.44 (D.C. Cir. 1971).
Footnote 44 spoke into existence the consultant corollary without examining either Exemption 5’s text or
FOIA’s overarching structure.2 The Soucie court instead sought to discern Congress’s purpose in enacting Exemption 5, and then considered what other situations not covered by Exemption 5’s text could benefit from a similar rationale. Yet, as we all know by
now, such an “approach is a relic from a bygone era of
statutory construction.” Argus Leader, 139 S. Ct. at
2364 (internal quotation marks and citation omitted).
Still, “judicial inertia” proved a powerful thing.
Rojas v. Fed. Aviation Admin., 927 F.3d 1046, 1057
(9th Cir. 2019), reh’g en banc granted. What Soucie’s
Footnote 44 set in motion, the Fifth Circuit continued
in Wu v. National Endowment for Humanities, 460
F.2d 1030 (5th Cir. 1972). Again, that court did not
bother to confront Exemption 5’s text or FOIA’s structure. Id. at 1032. It simply quoted Soucie and moved
along. Id. The First and Second Circuits soon fell in
line, relying on Soucie, Wu, and later Fifth Circuit
Footnote 44 states: “The rationale of the exemption for internal communications indicates that the exemption should be
available in connection with the Garwin Report even if it was
prepared for an agency by outside experts. The Government may
have a special need for the opinions and recommendations of
temporary consultants, and those individuals should be able to
give their judgments freely without fear of publicity. A document
like the Garwin Report should therefore be treated as an intraagency memorandum of the agency which solicited it.” Soucie,
448 F.2d at 1078 n.44.
2

41a
cases that cited Wu rather than conducting any sort
of textual or structural analysis for themselves. See
Gov’t Land Bank v. Gen. Servs. Admin., 671 F.2d 663,
665 (1st Cir. 1982); Lead Indus. Ass’n, Inc. v. OSHA,
610 F. 2d 70, 83 (2d Cir. 1979). Meanwhile, the D.C.
Circuit paid lip service to Exemption 5’s text in Ryan
v. Department of Justice, 617 F.2d 781 (D.C. Cir.
1980), but interpreted that text “in light of [Exemption 5’s] purpose,” id. at 789, which it divined from
legislative history, and the judicial “common sense”
espoused in Wu and Soucie, id. at 790 & n.30; see also
Brinkerhoff, supra, at 614 (“[O]nce a court made an
initial interpretation, others could simply cite that decision rather than re-explain the tensions between
FOIA’s text and diverging doctrine.”).
The Supreme Court watched these developments
from a distance. In 1988, in the early days of the textualist revolution, three dissenting justices suggested
in a footnote without much analysis that the consultant corollary doctrine, though not the “most natural
meaning” of Exemption 5, was “a permissible and desirable reading of the statute.” U.S. Dep’t of Just. v.
Julian, 486 U.S. 1, 18 n.1 (1988) (Scalia, J., dissenting). Those justices did not, however, explain why this
meaning was “textually possible,” what “the purpose
of” Exemption 5 was, or why that purpose should
trump the exemption’s plain text. Id.
Thirteen years later in Klamath, a unanimous
Court brought this debate into somewhat sharper focus. On the one hand, it acknowledged that “neither
the terms of [Exemption 5] nor the statutory definitions say anything about communications with outsiders.” Klamath, 532 U.S. at 9. It further affirmed

42a
that the words “inter-agency or intra-agency” in Exemption 5 are not “purely conclusory term[s]” and
that there exists no “textual justification for draining
the [inter-agency or intra-agency requirement] of independent vitality.” Id. at 12. On the other hand, the
Court quoted the footnote in Justice Scalia’s Julian
dissent to highlight the previously advanced argument in favor of the consultant corollary doctrine. See
id. at 9-10. But the Court had no occasion to settle this
controversy in Klamath, see id. at 12, and resolved
that case on other grounds, see id. at 12-15.
The debate surrounding the consultant corollary
doctrine and its variants has remained unsettled in
the wake of Klamath. One court of appeals has fallen
in line with the Soucie consensus, though based on a
clear misreading of Klamath. See Stewart v. U.S.
Dep’t of Interior, 554 F.3d 1236, 1244 (10th Cir. 2009)
(stating incorrectly that Klamath had definitively
“recogniz[ed] that Exemption 5 extends to government agency communications with paid consultants”). Another applied the doctrine without analyzing Klamath at all, Hanson v. U.S. Agency for Int’l
Dev., 372 F.3d 286, 291-94 (4th Cir. 2004), and, over
a dissent, has since extended Exemption 5 even further, far beyond the bounds of the consultant corollary, Hunton & Williams v. U.S. Dep’t of Just., 590
F.3d 272, 279-80 (4th Cir. 2010). Only the Sixth Circuit has bucked the Soucie trend and, at the least, cast
serious doubt on whether the consultant corollary can
be found in Exemption 5’s text. See Lucaj v. Fed. Bureau of Invest., 852 F.3d 541, 548-49 (6th Cir. 2017)
(refusing to read Exemption 5’s plain text to embrace
the common interest doctrine and implying that the
consultant corollary suffers from similar defects).

43a
Meanwhile, even within circuits that have embraced
the consultant corollary, there remain clear misgivings. See, e.g., Nat’l Inst. of Military Just. v. Dep’t of
Def., No. 06-5242, 2008 WL 1990366, at *1 (D.C. Cir.
April 30, 2008) (Tatel, J., concurring in the denial of
rehearing en banc) (“I continue to believe that the documents at issue here fall outside the protection of Exemption 5 of the Freedom of Information Act because
they cannot plausibly be described as ‘intraagency’ …”).
If you expected a long and storied history of careful analysis and reasoning to lie behind the consultant
corollary, you probably feel disappointed. Readers familiar with FOIA might even feel a sense of déjà vu in
all this. As in Milner and Argus Leader, a decades-old
D.C. Circuit decision that contained no meaningful
analysis of FOIA’s text gave birth to an atextual doctrine. And as in those cases, other circuits followed
the D.C. Circuit’s lead without meaningful analysis of
the text or structure of Exemption 5. We can only
speculate as to where this will end.
III.
To its credit, the majority opinion acknowledges
that adopting the consultant corollary is not the most
natural reading of Exemption 5. Maj. Op. at 12. Its
analysis laudably does more than blindly cite to
Soucie, Wu, or their progeny. However, it can only
adopt the consultant corollary by distorting Exemption 5’s context and legislative purpose. Maj. Op. at
13. None of this analysis was necessary given Exemption 5’s plain text, and perhaps worse, none of it holds
up to careful scrutiny.

44a
On every level, FOIA’s statutory context cuts
against the consultant corollary. At the highest level,
“disclosure, not secrecy, is the dominant objective of”
FOIA, Klamath, 532 U.S. at 8, and “Congress undoubtedly sought to expand public rights of access to
Government information” through this Act, Forsham
v. Harris, 445 U.S. 169, 178 (1980). The statute thus
contains multiple different mechanisms to facilitate
government
transparency.
See
5
U.S.C.
§ 552(a)(1)-(3), (5). “This pro-disclosure framework is
deliberate” and embodies “the power of frustration reflected in congressional distrust for agency withholding[,]” Brinkerhoff, supra, at 577 (internal quotation
marks and citation omitted), which stemmed from the
litany of government abuses before FOIA and the Watergate scandal, see 1 O’Reilly, Fed. Info. Disclosure
§§ 2:2, 3:8 (2018).
Zooming in to focus on the context of FOIA’s exemptions is similarly unhelpful to the majority’s
cause. These nine limited exemptions are “explicitly
made exclusive and must be narrowly construed.”
Milner, 562 U.S. at 564 (internal quotation marks and
citations omitted); see also 5 U.S.C. § 552(d). Therefore, even if there are two equally plausible readings
of a given FOIA exemption, we must favor the one
that promotes government transparency—not secrecy. See Dep’t of Air Force v. Rose, 425 U.S. 352, 366
(1976) (“FOIA requires us to choose that interpretation most favoring disclosure.”); John Doe Agency v.
John Doe Corp., 493 U.S. 146, 164 (1989) (Scalia, J.,
dissenting) (“[O]ur doctrine of ‘narrowly construing’
FOIA exemptions requires that ambiguity to be resolved in favor of disclosure.”).

45a
If anything, then, statutory context dooms the
majority’s reading of Exemption 5. Although the plain
text of the word “intra-agency” should alone resolve
this case, the majority (wrongly) views this word as
having two equally plausible interpretations. Maj.
Op. at 13. One interpretation reads Exemption 5 narrowly, rejects the consultant corollary, and thus favors disclosure; the other does the exact opposite.
That dichotomy should make our job easy. Because
the tie goes to disclosure, so to speak, we should side
with the narrow interpretation of “intra-agency” and
refuse to adopt the consultant corollary. See Rose, 425
U.S. at 366.
Instead, the majority’s “tiebreaker” is a myopic
reading of the purposes behind Exemption 5. To be
sure, that exemption reflects a justifiable policy concern with protecting an agency’s internal deliberations and preventing the disclosure of certain privileged documents. See Klamath, 532 U.S. at 8-9;
United States v. Weber Aircraft Corp., 465 U.S. 792,
801 (1984). But “the point” of Exemption 5 “is not to
protect Government secrecy pure and simple,” and
thus “the first condition of Exemption 5 is no less important than the second; the communication must be
‘inter-agency or intra-agency.’” Klamath, 532 U.S. at
9; Brinkerhoff, supra, at 584 (explaining that Congress did not transfer the privileges existing prior to
FOIA’s enactment to Exemption 5 “unscathed”). In
other words, Exemption 5 protects from disclosure
only certain privileged agency documents—i.e., those
that are inter- or intra-agency.
In this respect, it is notable that the cases from
which the majority surmises the purpose of

46a
Exemption 5 all predate Klamath. Maj. Op. at 13-14.
Before Klamath, the Supreme Court’s Exemption 5
cases had addressed only half of the Exemption 5 inquiry. See 532 U.S. at 8 (“Our prior cases on Exemption 5 have addressed the second condition, incorporating civil discovery privileges.”). Klamath thus
marked the first time that the Supreme Court addressed the full purpose of Exemption 5, and the
Court there specifically warned against draining Exemption 5’s “intra-agency or inter-agency” requirement of “independent vitality.” Id. at 12.
That Congress intended Exemption 5 to protect
less than the full universe of privileged government
documents is also far from surprising. Early drafts of
FOIA immunized even fewer of these documents from
disclosure. They shielded only “agency internal memoranda used in disposing of adjudicatory or rulemaking matters[,]” and refused to protect even “routine
internal agency correspondence.” 1 O’Reilly, Fed. Info.
Disclosure § 2:3. Of course, the Executive Branch
balked at this language, and a compromise was ultimately reached. See id. § 15:2. Together, the political
branches drew a new line at “intra-agency or interagency memorandums or letters that would not be
available by law to a party other than an agency in
litigation with the agency.” 5 U.S.C. § 552(b)(5); see
also 1 O’Reilly, Fed. Info. Disclosure § 15:2. The release of some privileged documents through FOIA is
thus by no means the aberration the majority suggests, but a long-planned feature of FOIA. See Klamath, 532 U.S. at 16 (“Congress had to realize that
not every secret under the old law would be secret under the new.”).

47a
Judge Collins’s concurrence makes a similar misstep, though he frames this argument as a contextual
reading of the word “intra-agency” rather than one
based on legislative purpose. Collins Concurrence at
26-27. However, as already explained, that Exemption 5’s text envisions protecting some privileged documents from disclosure by no means signals that Congress intended to withhold from scrutiny all such documents. Cf. Klamath, 532 U.S. at 11-12 (“From the
recognition of this interest in frank communication,
which the deliberative process privilege might protect, the Department would have us infer a sufficient
justification for applying Exemption 5 to communications with the Tribes, … But the Department’s argument skips a necessary step, for it ignores the first
condition of Exemption 5, that the communication be
‘intra-agency or inter-agency.’”); id. at 16 (“FOIA’s
mandate of broad disclosure … was obviously expected and intended to affect Government operations.”).
Finally, as already explained, Exemption 5’s use
of the word “intra-agency” does not protect just any
memorandum or letter within an agency, regardless
of whether its authors and recipients were agency employees. Collins Concurrence at 24. But two additional points are worth emphasizing. First, such a
reading would render the term “intra-agency …
purely conclusory” and without “independent vitality,” id. at 32, for every document potentially subject
to a FOIA request is “within” an agency, see U.S. Dep’t
of Just. v. Tax Analysts, 492 U.S. 136, 142, 144-46
(1989). Second, that reading would also cause courts
to read Exemption 5’s parallel terms “intra-agency”
and “inter-agency” in asymmetric ways. Intra-agency

48a
memorandums or letters would merely need to be
physically (or digitally) within an agency, while interagency memorandums or letters would need to have
been exchanged between agencies. Reading these
terms, located in the same sentence, to diverge in such
a manner runs counter to a faithful interpretation of
FOIA’s text. See United States v. Williams, 553 U.S.
285, 294 (2008) (“[A] word is given more precise content by the neighboring words with which it is associated.”).
IV.
All that remains at this point is a consequentialist
argument based on a fear of the quantity and types of
government documents that may enter the public domain if we take Congress at its word in Exemption 5.
As judges, we are former lawyers, and it is only natural that our instincts lead us away from the possibility
that Congress authorized the disclosure of sensitive
documents—for instance, attorney work-product or
even attorney-client materials. See Maj. Op. at 15.
And to be sure, Exemption 5, like all FOIA exemptions, plays an important role in FOIA’s statutory
scheme. See Argus Leader, 139 S. Ct. at 2366; Collins
Concurrence at 31. But, we must respect the statutory
scheme that Congress created and read Exemption 5
as Congress wrote it; we cannot “tak[e] a red pen to
the statute” and “cut[] out some words and past[e] in
others.” Milner, 562 U.S. at 573 (internal quotation
marks and citation omitted); see also Argus Leader,
139 S. Ct. at 2366 (“[W]e cannot properly expand Exemption 4 beyond what its terms permit[;] we cannot
arbitrarily constrict it either.”). Indeed, “[b]y suggesting that our interpretation of Acts of Congress

49a
adopted [five decades] ago should be inflected based
on the costs of enforcing them today, the [majority]
tips its hand.” McGirt v. Oklahoma, 140 S. Ct. 2452,
2481 (2020).
Besides, “dire warnings are just that, and not a
license for us to disregard the law.” Id. If Congress
has had a change of heart, it can always amend FOIA,
which it has proven itself more than willing to do. See,
e.g., OPEN FOIA Act of 2009, Pub L. No. 111-83,
§ 564, 123 Stat. 2142, 2184 (2009); Electronic Freedom of Information Act Amendments of 1996, Pub. L.
No. 104-231, 110 Stat. 3048 (1996). Congress has
amended FOIA in the wake of judicial rulings it does
not like, see 1 O’Reilly, Federal Information Disclosure § 3:9, and has even “amended FOIA when it
wanted to stop the use of FOIA as an end run around
discovery,” Brinkerhoff, supra, at 595 n.154 (collecting sources discussing Congress’s “1987 amendments
to Exemption 7” stemming from “a gang member’s use
of FOIA to discover law enforcement information”).
And, should Congress allow an honest reading of
Exemption 5’s text to stand, pessimism need not rule
the day. “In FOIA, after all, a new conception of Government conduct was enacted into law, a general philosophy of full agency disclosure.” Klamath, 532 U.S.
at 16 (internal quotation marks and citation omitted).
“Congress believed that this philosophy, put into
practice, would help ‘ensure an informed citizenry, vital to the functioning of a democratic society.’” ’Tax
Analysts, 492 U.S. at 142 (1989) (quoting NLRB v.
Robbins Tire & Rubber Co., 437 U.S. 214, 242 (1978)).
Giving Exemption 5 its fair compass, and nothing
more, lives up to these ideals, and ensures that the

50a
workings of the Executive Branch are transparent to
the American people.
V.
Like so many other courts of appeals, today our
court disregards the plain text of Exemption 5 and
continues a long history of judicial deference to Executive secrecy. Because I disagree with that approach
and do not think we should perpetuate this interpretation of Exemption 5, I respectfully dissent.
THOMAS, Chief Judge, concurring in part and dissenting in part:
I join Judge Wardlaw’s dissent in full. I also agree
with the majority opinion’s holding that the Federal
Aviation Administration (“FAA”) did not meet its burden to show that it conducted an adequate search for
documents responsive to Jorge Rojas’s Freedom of Information Act (“FOIA”) request. I write separately to
observe that, even if the consultant corollary formed
part of Exemption 5, it would not protect the specific
information sought in this case.
Rojas’s FOIA request was for “information regarding the empirical validation” of the FAA’s 2015
“biographical assessment[.]” These types of validation
studies are addressed in the United States Equal Employment Opportunity Commission’s Uniform Guidelines on Employee Selection Procedures. See generally
29 C.F.R. pt. 1607. The Uniform Guidelines require
that any employment screening test that results in
adverse impact on members of any race, sex, or ethnic
group must be validated by study, and the Uniform

51a
Guidelines establish detailed criteria for such validation studies. 29 C.F.R. §§ 1607.3(A), 1607.5.
Most importantly for our purposes, the Uniform
Guidelines require employers and agencies to maintain documentation of the validation studies and
make the studies available for review. Specifically,
the Uniform Guidelines provide that “[a]ny employer
… which uses a selection procedure as a basis for any
employment decision” “should maintain and have
available” documentation of the selection procedure’s
adverse impact, if any, and evidence of its validity. 29
C.F.R. §§ 1607.5(D), 1607.15, 1607.16(W).
The FAA has recognized its obligation under the
Uniform Guidelines to conduct validation studies and
maintain them. Indeed, the FAA’s Deputy Assistant
Administrator for Human Resource Management testified before Congress that compliance with the Uniform Guidelines “is legally an obligation we have as
an agency,” and that the FAA’s consultants accordingly had “done the validation work to ensure that the
[biographical assessment] is valid.” A Review of the
Federal Aviation Administration’s Air Traffic Controller Hiring, Staffing, and Training Plans: Hearing
Before the Subcomm. on Aviation of the H. Comm. on
Transp. & Infrastructure, 114th Cong. 21 (2016). Further, the FAA has repeatedly confirmed that both the
2014 and 2015 biographical assessments had been
validated. A document that an agency is required to
produce and maintain is not a document prepared in
anticipation of litigation. See Am. Civ. Liberties Union
of N. Cal. v. U.S. Dep’t of Just., 880 F.3d 473, 485-86
(9th Cir. 2018). Thus, Exemption 5 cannot shield the
validation studies from disclosure under FOIA.

52a
In this case, the record indicates that the FAA has
either conducted an inadequate search for documents
it actually possesses or has disregarded the Uniform
Guidelines’ instructions to “maintain and have available” evidence of the biographical assessment’s validation by leaving it in APTMetrics’ possession and attempting to shield it from disclosure under FOIA. 29
C.F.R. §§ 1607.5(D), 1607.15. An agency cannot avoid
its responsibility to conduct and maintain employment screening test validation studies by placing the
studies in third-party hands and claiming that the
studies were prepared in anticipation of litigation.
Such a practice would violate the Uniform Guidelines
and frustrate FOIA’s “policy of broad disclosure of
Government documents[.]” Fed. Bureau of Investigation v. Abramson, 456 U.S. 615, 621 (1982).
Of course, the present record is not fully developed on these issues, and the instant appeal is limited
to summaries of the studies, but the district court will
have the opportunity to revisit these issues on remand.
In sum, I agree with Judge Wardlaw that FOIA’s
Exemption 5 does not afford “consultant corollary”
protection for documents exchanged with a non-governmental entity. However, even if the consultant corollary could be grafted onto Exemption 5, it would not
protect the information Rojas sought in his FOIA request because the information was required to be
maintained and made publicly available by the
agency.
Therefore, I respectfully concur in part and dissent in part.

53a
IKUTA, Circuit Judge, with whom GRABER and
CALLAHAN, Circuit Judges, join, and BUMATAY,
Circuit Judge, joins except as to footnote 1, dissenting
in part:
I write separately because I disagree with the majority’s conclusion that the declaration submitted by
the FAA failed to show that the agency “conducted a
search reasonably calculated to uncover all relevant
documents” in response to Rojas’s FOIA request.
Zemansky v. EPA, 767 F.2d 569, 571 (9th Cir. 1985)
(cleaned up).1
“In response to a FOIA request, government agencies must conduct a reasonable search to find any documents responsive to the request.” Hamdan v. Dep’t
of Justice, 797 F.3d 759, 770 (9th Cir. 2015). A search
is reasonable if it is “reasonably calculated to uncover
all relevant documents.” Zemansky, 767 F.2d at 571
(citation omitted). “An agency can demonstrate the
adequacy of its search through ‘reasonably detailed,
nonconclusory affidavits submitted in good faith.’”
Hamdan, 797 F.3d at 770 (quoting Zemansky, 767
F.2d at 571). “Affidavits submitted by an agency to
demonstrate the adequacy of its response are presumed to be in good faith.” Id. In short, our standard

I otherwise agree with the majority’s interpretation of “intra-agency memorandums or letters” to include documents prepared by outside consultants hired by the agency to assist in carrying out the agency’s functions. Therefore, I would affirm the
district court’s summary judgment order for the FAA as to the
first two withheld documents, and reverse as to the third document for the reasons stated in the majority opinion.
1

54a
requires the agency to make a “reasonable search” in
light of the FOIA request at issue. See id.
Here, Rojas’s FOIA request was limited to the following:
I am requesting information regarding the
empirical validation of the biographical assessment noted in the rejection notification.
This includes any report created by, given to,
or regarding APTMetrics’ evaluation and
creation and scoring of the assessment.
Only the search undertaken by the FAA’s Office
of the Chief Counsel is at issue in this appeal. The Office of Chief Counsel’s involvement in the Air Traffic
Control Specialists (ATCS) hiring process was limited
to requesting and obtaining a summary of APTMetrics’ “validation work related to the use of the [Biographical Assessment] as an instrument in the
ATCS selection process,” in connection with potential
future litigation. This assignment to APTMetrics was
narrowly focused: According to the FAA’s Vaughn index, only three documents related to this assignment
were found in the FAA’s legal office.
Given this context, asking the lawyers in the office who had been assigned to provide legal advice regarding the revisions to the ATCS hiring process to
search their files for responsive documents would be
a reasonable response to Rojas’s FOIA request.
And that was exactly what the Office of the Chief
Counsel did. Yvette Armstead, the Assistant Chief
Counsel at the Office of the Chief Counsel’s

55a
Employment and Labor Law Division (AGC-100), is
the lawyer responsible for providing “legal advice related to the hiring process for [ATCS] at the Federal
Aviation Administration.” According to her declaration, which we presume to be in good faith:
AGC-100 conducted a second search for documents responsive to Plaintiff’s request
within our office. This search was reasonably calculated to obtain responsive records
because the attorneys who provided legal advice related to the revisions to the ATCS hiring process were asked to review their records.
There is no dispute that the search described in
this simple statement was reasonable under the circumstances. Rojas does not challenge the scope or
methods of the search described in this statement.
Nor has Rojas argued that the FAA should have expanded its search or found specific categories of additional documents. Cf. Lahr v. Nat’l Transp. Safety
Bd., 569 F.3d 964, 988 (9th Cir. 2009) (rejecting the
claim that the government’s searches were inadequate because they failed to uncover documents referenced in produced records); Lane v. Dep’t of Interior,
523 F.3d 1128, 1139 (9th Cir. 2008) (same). While we
have indicated that an agency’s search might be insufficient if “other databases are likely to turn up the
information requested” or if a standard search turns
up leads “that suggest other records might be located
elsewhere,” Hamdan, 797 F.3d at 772, Rojas does not
suggest there was any such deficiency here. Rojas’s
FOIA request did not require a search of thousands of

56a
files or massive electronic databases, and Rojas does
not argue otherwise.
Given the limited search required by Rojas’s
FOIA request, the agency’s simple description of its
search provided reasonably adequate detail. It describes who was asked to conduct a search—the attorneys who were involved in the ATCS hiring process
revisions, i.e., the only persons in the Office of the
Chief Counsel who would have responsive documents.
It also describes the search methods used and the
body of records examined: the attorneys reviewed
their files for relevant documents. In the context of
this particular search, nothing more was required to
provide a reasonable description of the files searched
or the search procedure used.
The majority fails to provide any reasonable analysis or explanation for its contrary—and conclusory—
holding that the FAA’s declaration “falls short” of
what is required. Maj. at 22. Instead of explaining
why the FAA’s description of its search was not “reasonably detailed” in the particular context of this
case, see Hamdan, 797 F.3d at 770, the majority
makes a rote recital that the declaration “offers no details about how the search was conducted,” because it
fails to describe “the number of attorneys involved,
the search methods they used, the body of records
they examined, or the total time they spent on the
search.” Maj. at 22. This criticism is not reasonable.
The declaration provides all relevant information: the
office that conducted the search, the persons asked to
conduct the search, the search procedure, and the
search scope. Although the declaration does not state
how many attorneys were involved, or how much time

57a
was spent on their search, the majority fails to explain
why the lack of such details here makes the information that was provided fatally inadequate. While
more details may be needed to demonstrate the adequacy of a search involving large databases in multiple locations and with numerous custodians, it is not
reasonably required in this context.
Nor does our precedent support the majority’s
conclusions. The cases cited by the majority merely
reviewed the agency declarations and approved them.
Maj. at 22 (citing Lane, 523 F.3d at 1139; Citizens
Commission on Human Rights v. FDA, 45 F.3d 1325,
1328 (9th Cir. 1995)). We have never held that specific
details were required or that the absence of such details would render a declaration per se insufficient.
Our case law requires only that an affidavit be “reasonably detailed.” Hamdan, 797 F.3d at 770. What
constitutes a “reasonably detailed” affidavit must—
reasonably—depend on the context of the particular
search. By ignoring the context, the majority requires
an agency to incant magic words, and ignores our
touchstone of reasonableness under the circumstances.
Because the declaration here is “reasonably detailed” to establish that the FAA’s search was adequate in the circumstances presented here, the FAA
is entitled to summary judgment on this issue as a
matter of law.
BUMATAY, Circuit Judge, concurring in part and
dissenting in part:

58a
Our task should have been simple. Exemption 5
of the Freedom of Information Act (“FOIA”) protects
only “inter-agency or intra-agency memorandums or
letters” from disclosure under the Act. 5 U.S.C.
§ 552(b)(5). As Justice Scalia stated, “the most natural meaning of the phrase ‘intra-agency memorandum’ is a memorandum that is addressed both to and
from employees of a single agency” and an “interagency memorandum” is “a memorandum between
employees of two different agencies.” U.S. Dep’t of
Justice v. Julian, 486 U.S. 1, 18 n.1 (1988) (Scalia, J.,
dissenting). These definitions leave no room for documents created by those outside of an agency’s employment. To me, that is the end of the inquiry and Exemption 5 doesn’t cover consultant work product.
But finding Congress’s work inadequate, the majority picks up its drafting pen and bestows on us a
supposedly better law. Contending that Congress actually adopted sub silentio a “consultant corollary”
through the otherwise clear language of Exemption 5,
the majority now rules that the government no longer
needs to publicly disclose documents made by privatesector consultants for executive agencies.
How does the majority justify this judicial rewrite? It’s purpose all the way down. The majority creates an “escape route from the prison of the text,”2 by
invoking Exemption 5’s supposed purpose and imposing a more faithful—as the majority sees it—version
Antonin Scalia & Bryan Garner, Reading Law: The Interpretation of Legal Texts 39 (2012) (“Reading Law”) (quoting Patrick Devlin, The Judge 16 (1979)).
2

59a
of the law. But invocation of purpose is nothing more
than a “bald assertion of an unspecified and hence unbounded judicial power to ignore what the law says.”
Guerrero-Lasprilla v. Barr, 140 S. Ct. 1062, 1077
(2020) (Thomas, J., dissenting) (quoting Reading Law
343).
Because I do not believe that our limited judicial
role allows us to subvert the plain text of a law to our
own sense of its purpose, I respectfully dissent.
I.
APTMetrics, a private consulting firm independent of the federal government, developed assessment
tests for hiring air traffic controllers for the Federal
Aviation Administration. Jorge Rojas, a rejected applicant, filed suit under FOIA seeking three documents summarizing the assessment tests created by
APTMetrics.3 The FAA sought to withhold the documents under Exemption 5.4 But APTMetrics, all
That the documents at issue were summaries rather than
the test themselves makes little difference under the plain
meaning of Exemption 5. The exemption focuses on who created
the memorandums or letters, not on their purpose or substance.
But see Maj. Op. 18 n.3 (finding that the documents were summaries to be critical).
3

4

Exemption 5 states, in full:
This section does not apply to matters that
are— … inter-agency or intra-agency memorandums or letters that would not be available by law to a party other than an agency in
litigation with the agency, provided that the
deliberative process privilege shall not apply

60a
agree, is not an agency under FOIA. See 5 U.S.C.
§ 551(1) (An “agency” must be an “authority of the
Government of the United States.”). Nor has the FAA
argued that APTMetrics consultants are so embedded
within its structure that they should be deemed FAA
employees.5 By its plain text then, Exemption 5
doesn’t protect APTMetrics’s documents from disclosure.6

to records created 25 years or more before the
date on which the records were requested[.]
5 U.S.C. § 552(b)(5). A document, thus, must satisfy two conditions to qualify as a FOIA withholding exemption. See Dep’t of
Interior v. Klamath Water Users Protective Ass’n, 532 U.S. 1, 8
(2001). Since the first condition—being an “intra-agency memorandum[]”—is not met in this case, I do not address the second
condition.
Rather, it is the opposite. The FAA purposefully held out
APTMetrics as “outside experts” who developed and independently validated the assessment tests.
5

With respect, I believe Judge Collins’s interpretation of
Exemption 5 suffers from two flaws. First, Judge Collins seems
to view “intra-agency memorandums” as merely a geographical
condition—only requiring that the memorandum “be intraagency,” meaning within the agency. See Collins Concurrence at
24. Setting aside that no one would ever use the word “intraagency” as a location, FOIA only applies if the document is
within the agency in the first place. See Berry v. Dep’t of Justice,
733 F.2d 1343, 1349 (9th Cir. 1984) (limiting “agency records” to
information “in the possession of an agency”). So this interpretation effectively reads the term out of the statute. It’s also unclear
how Judge Collins’s location-based reading applies to “interagency” memorandums—does it mean that the document is simultaneously present in two agencies?
6

61a
The majority disputes none of this; yet, it concludes that Exemption 5 applies nonetheless based on
FOIA’s supposed purpose and a desire to avoid the parade of horribles it envisions if we were to give the
provision its plain meaning. The majority first divines
from FOIA’s legislative history that, despite the exemption’s limited scope, Congress’s “purpose” was to
broadly “shield[] privileged communications from disclosure.” Maj. Op. 13. Second, the majority fears that
Exemption 5’s plain meaning would chill communications between consultants and government employees, resulting in “poorer” decisionmaking and policies.
Maj Op. 13 (quoting NLRB v. Sears, Roebuck & Co.,
421 U.S. 132, 150 (1975)). Finally, the majority thinks
an ordinary-meaning interpretation of the provision

Second, Judge Collins believes Exemption 5’s second condition—that the document would not be “available by law to a
party”—means that “intra-agency memorandum” refers to any
document that falls “within the agency’s litigation privileges.”
See Collins Concurrence at 26-27. Yet under this reading, “intraagency” does no work at all. And we turn grammar on its head if
we treat a limiting dependent phrase, like Exemption 5’s second
condition, as totally eliminating the words to which it is dependent.
At the end of the day, even if Judge Collins’s interpretation
were permissible, I continue to believe our duty is to “seek the
best reading of the statute by interpreting the words of the statute, taking account of the context of the whole statute, and applying the agreed upon semantic canons.” Brett M. Kavanaugh,
Fixing Statutory Interpretation, 129 Harv. L. Rev. 2118, 2121
(2016) (emphasis added). In this case, the best and “most natural” reading of the phrase is that the “memorandums” must be
“to and from employees of a single agency.” Julian, 486 U.S. at
18 n.1 (Scalia, J., dissenting).

62a
would potentially vitiate the attorney-work-product
privilege of an agency’s outside counsel. Id. at 15.
To accommodate these considerations, the majority engrafts a “consultant corollary” to Exemption 5,
whereby any document may now be subject to exemption if drafted by anyone “act[ing] in a capacity functionally equivalent to that of an agency employee in
creating the document.” Maj. Op. 17.
II.
A.
In my view, we can never let perceived legislative
purpose eclipse the ordinary meaning of statutory
text. If a statute has a clear and natural reading, as
is the case here, we are stuck with that meaning—
even if we believe Congress might disagree with the
outcome in a particular case. This limited judicial role
derives directly from the structure of our Constitution
and separation-of-powers principles.
Lawmaking is not a tidy affair. It can be a
“clumsy, inefficient, even unworkable” process. INS v.
Chadha, 462 U.S. 919, 959 (1983). That is by design.
See id. The Constitution requires bicameralism—
meaning that legislation must pass both the House
and Senate with their respective rules and committees. Id. at 948-49 (citing Article I of the Constitution).
When Congress is at its full complement, it consists of
535 legislators from various backgrounds, regions,
and beliefs, split into two chambers with different
constituencies and political interests. Id. at 948-51;
Apportionment Act of 1911, 37 Stat. 13, 13-14;

63a
Apportionment Act of 1929, 46 Stat. 21, 26-27. The
Constitution also requires presentment to the President, who provides a separate “national perspective”
to legislation. Chadha, 462 U.S. at 948 (simplified).
Given this, I am skeptical that the majority could
so easily discern the legislative purpose behind the
FOIA exemptions. When we sit en banc, we’re only 11
judges—yet, it is often difficult to find agreement
among our small number. It is doubtful that we could
extract a common purpose from a body almost 50
times as large, as the majority purports to do.
Legislation, moreover, is often about the art of
compromise. Even when Congress unites to tackle a
national issue, “its Members may differ sharply on the
means for effectuating that intent.” Bd. of Governors
of Fed. Reserve Sys. v. Dimension Fin. Corp., 474 U.S.
361, 374 (1986). Given the clash of purposes, interests, and ideas, “the final language of the legislation
may reflect hard-fought compromises.” Id. After all,
no legislation pursues its purposes at all costs, so “it
frustrates rather than effectuates legislative intent
simplistically to assume that whatever furthers the
statute’s primary objective must be the law.” Pension
Benefit Guar. Corp. v. LTV Corp., 496 U.S. 633,
646-47 (1990) (simplified). In other words, when we
allow legislative purpose to override statutory text,
we undo these legislative compromises and recalibrate any balances struck by Congress. And we do so

64a
without any limiting principle except our own discretion.7
More troublesome still is the majority’s reliance
on legislative history to determine Congress’s purpose
in enacting FOIA exemptions. See Maj. Op. 13-14
(quoting a single Senate committee report to represent Congress’s intent to encourage “frank discussion
of legal and policy matters”). But there are significant
problems with using legislative history to single out
congressional intent. See Fazaga v. FBI, 965 F.3d
1015, 1081-82 (9th Cir. 2020) (Bumatay, J., dissenting
from denial of rehearing en banc). In any event,
judges have found other congressional purposes in
FOIA, too. For one, the Supreme Court has said that
the “core purpose” of FOIA is to “contribut[e] significantly to public understanding of the operations or activities of the government.” U.S. Dep’t of Def. v. Fed.
Labor Relations Auth., 510 U.S. 487, 495 (1994) (simplified). That is why the Court has continuously
To be clear, this doesn’t mean we cannot interpret statutes
based on their context. If contextual clues help give meaning to
the words of the statute, we may readily employ them. See Reading Law 153 (“Perhaps no interpretive fault is more common
than the failure to follow the whole-text canon, which calls on
the judicial interpreter to consider the entire text, in view of its
structure and of the physical and logical relation of its many
parts.”). For example, here, in FOIA, two other exemptions specifically authorize the non-disclosure of documents created by
non-government employees. See 5 U.S.C. § 552(b)(4), (8). That
Congress did not include such express language in Exemption 5
is strong contextual evidence against the so-called consultant
corollary. But what we can’t do is try to discern some overriding
extratextual policy purpose to then eclipse the plain meaning of
statutes.
7

65a
reaffirmed that FOIA requires “full agency disclosure” unless exempted under “clearly delineated statutory language.” Id. (quoting Dep’t of Air Force v.
Rose, 425 U.S. 352, 360-61 (1976)).
If purpose rather than text governs, which purpose prevails here? While some legislators may have
felt that protecting government privileges was of paramount importance, others may have believed that
achieving government transparency was more critical. As judges, we are not well-situated to step into
the shoes of our elected representatives and select a
purpose to guide our interpretation. See Diamond v.
Chakrabarty, 447 U.S. 303, 317 (1980) (“[T]he balancing of competing values and interests” requires “the
kind of investigation, examination, and study that
legislative bodies can provide and courts cannot.”).
That is exactly what the majority does, however, by
prophesying what Congress would have enacted if
only it better understood its own purposes. See, e.g.,
Maj. Op. 14 (“A Congress whose aim was to further
the purposes just discussed would not have limited
Exemption 5’s coverage to communications authored
by agency employees.”).
Indeed, Exemption 5’s limitation to inter- and intra-agency materials may have been the compromise
between Congress’s dueling purposes. By ignoring its
plain meaning, we subvert any legislative compromise baked into its enacted text. Furthermore, it’s not
clear how else Congress could have expressed its rejection of the consultant corollary. After all, the language of Exemption 5 does precisely that—it leaves
no room for consultant documents to be exempted.
But that wasn’t enough for the majority. Perhaps, a

66a
congressional amendment to Exemption 5—“and we
really mean it”—would suffice.
Most disconcerting about the approach articulated by the majority is the threat to the separation of
powers. Any student of the Constitution can recite
that Congress makes the laws and judges interpret
them. See Patchak v. Zinke, 138 S. Ct. 897, 904 (2018)
(“To the legislative department has been committed
the duty of making laws; … and to the judiciary the
duty of interpreting and applying them[.]”). By reading a statute not by its text, but its purpose, judges
come dangerously close to legislating—except without
the political accountability.
If there was any doubt about this concern, look no
further than the majority’s test for when a document
meets the “consultant corollary” exemption. It states
that any document drafted by anyone “act[ing] in a
capacity functionally equivalent to that of an agency
employee in creating the document” is subject to the
protection of Exemption 5. Maj. Op. 17. So instead of
the straightforward language used in Exemption 5,
citizens must now parse the majority’s newfangled,
multi-factor test8 to gain the disclosure of government
documents. While this test might make normative
sense, and congressional staffers might admire its
As I understand it, the majority’s consultant corollary test
requires (1) establishing what an “agency employee” does for a
particular agency; and (2) determining whether the consultant
acted in a “functionally equivalent” capacity. No doubt further
litigation will be required to refine the meaning of each step and
establish the prongs for each factor and, of course, the subprongs
to the prongs for each factor.
8

67a
drafting, none of it is derived from the text of Exemption 5 or frankly any other legislation. We simply
made it up. Cf. California v. EPA, 978 F.3d 708, 718
(9th Cir. 2020) (“There is a word for picking the law
that determines a party’s future conduct: legislation[.]”) (emphasis omitted).
B.
The same goes for the majority’s concerns for the
consequences of interpreting Exemption 5 according
to its text. We don’t supersede or amend congressional
enactments simply because we (or our belief that Congress would) disagree with the outcome in a particular case. Our job requires neutrality to a statute’s consequences. See Griffin v. Oceanic Contractors, Inc.,
458 U.S. 564, 576 (1982) (“The remedy for any dissatisfaction with the results in particular cases lies with
Congress and not with th[e] [c]ourt[s].”). We don’t reverse engineer our interpretation of a law by surveying the outcomes it produces and then selecting the
reading that reaches our favored results. That gets it
backwards. See Baker Botts LLP v. ASARCO LLC,
576 U.S. 121, 134 (2015) (A “harsh outcome” does not
justify deviating from “the import of Congress’ chosen
words.”). So it’s inappropriate to create a “consultant
corollary” based on fear that not doing so would discourage outside consultants from working with agencies. See Maj. Op. 14.
For what it’s worth, the majority’s overwrought
concern for the protection of an agency’s outside counsel’s work product is also a bit of a red herring. See
Maj. Op. 15. First, that is not this case. APTMetrics
is not outside counsel and no one suggests it is the

68a
functional equivalent of one. If such a case arises in
the future, we can decide whether the attorney-client
privilege is so sacrosanct that we must override
FOIA’s statutory text; but there is certainly no reason
to do that here. Second, I am not so sure that such a
case would arise. The FAA is not like a normal client.
It can’t just retain any lawyer of its choice. It is, after
all, an Executive agency. 49 U.S.C. § 106. It has a cadre of lawyers in its chief counsel’s office.9 It sits
within the Department of Transportation with its
own team of lawyers. 49 U.S.C. § 106(a). And, by law,
the Department of Justice provides it legal counsel
and must represent it in all litigation. See 28 U.S.C.
§§ 514, 516; 5 U.S.C. § 3106. So, I seriously doubt that
the need to protect privileged communications of outside counsel is so grave and so stark that we must discard the plain reading of the text enacted by Congress.10

See Office of the Chief Counsel, Federal Aviation Administration, https://www.faa.gov/about/office_org/headquarters_offices/agc/ (Sept. 19, 2017, 2:36 PM).
9

Judge Collins contends that we must confront the attorney-client issue here because another agency—the FDIC—may
potentially need to rely on outside attorneys. See Collins Concurrence 30-31. I think this example only proves my point. Unknown issues may pop up in such a situation. For example, the
FDIC guidelines governing outside counsel cited by Judge Collins may impact our analysis. See id. at 30-31. We also don’t
know if these hypothetical outside counsel are hired as special
Government employees. See 18 U.S.C. § 2020(a). Or if other federal laws, such as conflicts and ethics requirements, apply to outside counsel. Point being, we don’t need to decide this question
in this case.
10

69a
C.
I acknowledge that Justice Scalia, after analyzing
the “natural meaning” of Exemption 5, went on to consider FOIA’s purpose and endorse a consultant corollary. Julian, 486 U.S. 1, 18 n.1 (Scalia, J., dissenting).
In my view, the principles that Justice Scalia spent a
lifetime advocating—textualism, separation of powers, deference to the political branches11—are more
important than any one of his individual decisions, let
alone dicta buried in a footnote of a dissent he authored more than 30 years ago. That all judges, to varying degrees, adhere to the plain meaning of statutory
text is Justice Scalia’s lasting legacy. It is more faithful to that legacy to maintain that the plain meaning
of the text must prevail here.
III.
I concur with the majority that the FAA was not
required to search APTMetrics’ records for responsive
documents. But, as Judge Ikuta explains in her wellreasoned dissent, the majority was also incorrect that
FAA’s search was inadequate. Most fundamentally,
however, because a perceived legislative purpose
doesn’t eclipse the natural meaning of statutory text,
I respectfully dissent from the judgment of the court.

See, e.g., Neil M. Gorsuch, Of Lions and Bears, Judges
and Legislators, and the Legacy of Justice Scalia, 66 Case W.
Res. L. Rev. 905, 912 (2016).
11

70a
APPENDIX B
FOR PUBLICATION
UNITED STATES COURT OF APPEALS FOR
THE NINTH CIRCUIT
JORGE ALEJANDRO ROJAS,
Plaintiff-Appellant,
v.
FEDERAL AVIATION
ADMINISTRATION,
Defendant-Appellee.

No. 17-55036

D.C. No.
2:15-cv-05811-CBM-SS
ORDER AND
AMENDED OPINION

Appeal from the United States District Court
for the Central District of California
Consuelo B. Marshall, District Judge, Presiding
Argued and Submitted June 6, 2018
Pasadena, California
Filed April 24, 2019
Amended June 18, 2019
Before: Kim McLane Wardlaw and Morgan Christen,
Circuit Judges, and Donald W. Molloy,* District
Judge.
Order;
Opinion by Judge Molloy;
The Honorable Donald W. Molloy, United States District Judge
for the District of Montana, sitting by designation.
*

71a
Partial Concurrence and Partial Dissent by Judge
Christen
SUMMARY**
Freedom of Information Act
The panel reversed the district court’s order
granting summary judgment in favor of the Federal
Aviation Administration (“FAA”) in a case concerning
a Freedom of Information Act (“FOIA”) request.
The plaintiff submitted the FOIA request after
the FAA notified him that he was ineligible for an Air
Traffic Control Specialist position based on his performance on a screening test called the Biographical Assessment.
The panel held that the FAA failed to conduct a
search reasonably calculated to uncover all relevant
documents in response to plaintiff’s FOIA request.
The panel held that the records at issue were not
“intra-agency” documents, and FOIA’s Exemption 5
did not apply. Joining the Sixth Circuit, the panel rejected the consultant corollary theory, adopted by the
district court and some sister circuits, which uses a
functional interpretation of Exemption 5 that treats
documents produced by an agency’s third-party consultant as “intra-agency” memorandums.

This summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of the
reader.
**

72a
The panel rejected plaintiff’s argument that the
FAA had an obligation under FOIA to retrieve any responsive documents, such as the underlying data to
the summaries.
Judge Christen concurred in part and dissented
in part. She concurred with the majority that plaintiff
cannot use FOIA to access materials that the FAA
does not actually possess, and that the scope of the
FAA’s in-house search for responsive documents was
inadequate. She dissented from the majority’s rejection of the consultant corollary doctrine adopted by
seven sister circuits. She would adopt the corollary to
shield work product generated by the government’s
outside consultants in anticipation of litigation.
COUNSEL
Michael William Pearson (argued), Curry Pearson &
Wooten PLC, Phoenix, Arizona, for Plaintiff-Appellant.
Alarice M. Medrano (argued), Assistant United States
Attorney; Dorothy A. Schouten, Chief, Civil Division;
United States Attorney’s Office, Los Angeles, California; for Defendant-Appellee.
ORDER
The opinion filed on April 24, 2019, and reported
at 922 F.3d 907 (9th Cir. 2019), is amended at footnote 1. The amended opinion is filed simultaneously
with this Order, along with the unchanged dissent.
The parties may file petitions for rehearing and petitions for rehearing en banc in response to the

73a
amended opinion, as allowed by the Federal Rules of
Appellate Procedure.
OPINION
MOLLOY, District Judge:
Jorge Alejandro Rojas (“Rojas”) appeals the district court’s order granting summary judgment in favor of the Federal Aviation Administration (“FAA”).
The case concerns a Freedom of Information Act
(“FOIA”) request Rojas submitted to the FAA after the
FAA notified him that he was ineligible for an Air
Traffic Control Specialist position based on his performance on a screening test called the Biographical Assessment (“BA”). The district court held that (1) the
FAA fulfilled its FOIA obligations by conducting a
reasonable search for the requested information and
(2) the FAA properly withheld nine pages of summary
documents pursuant to Exemption 5 as inter-agency
memoranda subject to the attorney work-product doctrine. We have jurisdiction pursuant to 28 U.S.C.
§ 1291, and we reverse and remand.
I.

Background
A. The Biographical Assessment

In November 2012, the FAA hired Applied Psychological Techniques, Inc. (“APTMetrics”), a human
resources consulting firm, to review and recommend
improvements to the FAA’s hiring process for Air
Traffic Control Specialists.
In 2013, APTMetrics developed the BA test to replace the FAA’s existing Air Traffic Selection and

74a
Training Test. The BA is an initial screening test that
determines whether an applicant possesses certain
characteristics empirically shown to predict success
in an Air Traffic Control Specialist position. These
characteristics include flexibility, risk-tolerance, selfconfidence, dependability, resilience, stress tolerance,
cooperation, teamwork, and rules application. The
FAA implemented the BA for the first time during the
2014 hiring cycle for Air Traffic Control Specialist applicants. In Summer and Fall 2014, the FAA revised
the BA, and APTMetrics performed validation work
related to the revised BA (the “2015 BA”). The 2015
BA was subsequently incorporated in the 2015 Air
Traffic Control Specialist hiring process.1
In November 2014, the FAA Office of the Chief
Counsel asked John Scott (“Scott”), then Chief Operating Officer of APTMetrics, to create “summaries
and explanations” of its validation work on the 2015
BA in anticipation of litigation on the FAA’s hiring
practices. Scott provided the Office of the Chief Counsel with an initial summary in December 2014 and a
supplement in January 2015.

Rojas requests judicial notice of a transcript of a congressional
hearing from June 15, 2016. In general, we may take judicial
notice of publicly available congressional records, including transcripts of congressional hearings. See Fed. R. Evid. 201(b)(2); Lee
v. City of L.A., 250 F.3d 668, 689 (9th Cir. 2001) (providing that
judicial notice may be taken of public records). But judicial notice
is not appropriate here because the testimony at issue is “not
relevant to the resolution of this appeal.” Santa Monica Food Not
Bombs v. City of Santa Monica, 450 F.3d 1022, 1025 n.2 (9th Cir.
2006).
1

75a
B. Rojas’s Application and FOIA Request
In early 2015, Rojas applied for an Air Traffic
Control Specialist position with the FAA. During the
application process, he completed the 2015 BA. On
May 21, 2015, the FAA notified Rojas that he was ineligible for a position based on his responses to the
BA. Rojas’s rejection notification briefly described the
BA and stated that the test was “independently validated by outside experts.”
On May 24, 2015, Rojas emailed the FAA a FOIA
request seeking “information regarding the empirical
validation of the biographical assessment noted in
[his] rejection notification [from the FAA]. This includes any report created by, given to, or regarding
APTMetrics’ evaluation and creation and scoring of
the assessment.” On June 18, 2015, the FAA, through
the Office of the Chief Counsel, denied Rojas’s FOIA
request for documents on the empirical validation of
the 2015 BA. The FAA reasoned that these records
were, in part, protected as attorney work-product and
therefore subject to Exemption 5 of FOIA. See
5 U.S.C. § 552(b)(5). On June 24, 2015, Rojas filed an
administrative appeal contesting the FAA’s denial of
his FOIA request. On October 7, 2015, the FAA remanded Rojas’s case to the Office of the Chief Counsel
because the agency incorrectly searched for documents on the empirical validation of the 2014 BA, instead of the 2015 BA.
Pursuant to the remand, attorneys at the Office of
the Chief Counsel reviewed records on the empirical
validation of the 2015 BA. They located the following
three documents: (1) a summary of the Air Traffic

76a
Control Specialist hiring process, dated December 2,
2014; (2) a summary of the 2015 BA, dated January 29, 2015; and (3) a summary of the validation process and results of the 2015 BA, dated September 2,
2015. All of these records were created by APTMetrics
and are identified in the FAA’s Vaughn Index.2 The
FAA denied Rojas’s FOIA request for the second time
on December 10, 2015, once again invoking Exemption 5 and the attorney work-product doctrine.
On July 31, 2015, Rojas filed a complaint in district court, alleging that the FAA withheld information on the empirical validation of the 2015 BA in
violation of FOIA. On September 21, 2016, the district
court ordered the FAA to disclose the three documents
identified in its Vaughn Index for in camera review.
The district court granted summary judgment in favor of the FAA on November 10, 2016, holding that
the three responsive records were properly withheld
under Exemption 5 as attorney work-product. The
court also concluded that there was no genuine dispute of material fact that the FAA adequately
searched for relevant documents. Rojas timely appeals. See Fed. R. App. P. 4(a).
Agencies are typically required to submit a Vaughn Index in
FOIA litigation. See Vaughn v. Rosen, 484 F.2d 820, 823-25 (D.C.
Cir. 1973), cert. denied, 415 U.S. 977 (1974). A Vaughn Index
identifies the documents withheld, the FOIA exemptions
claimed by the agency, and “why each document falls within the
claimed exemption.” Yonemoto v. Dep’t of Veterans Affairs, 686
F.3d 681, 688 (9th Cir. 2012), overruled on other grounds by Animal Legal Def. Fund v. Food & Drug Admin., 836 F.3d 987 (9th
Cir. 2016) (en banc) (per curiam) (citation and internal quotation
marks omitted).
2

77a
II. Standard of Review
In FOIA cases, we review de novo a district court’s
order granting summary judgment. Animal Legal
Def. Fund, 836 F.3d at 990. Summary judgment is
warranted when, viewing the evidence in the light
most favorable to the non-moving party, there is “no
genuine dispute as to any material fact and the movant is entitled to judgment as a matter of law.” Fed.
R. Civ. P. 56(a); Olsen v. Idaho St. Bd. of Med., 363
F.3d 916, 922 (9th Cir. 2004).
III. Discussion
FOIA requires government agencies to “make …
promptly available to any person,” upon request,
whatever “records” are possessed by the agency.
5 U.S.C. § 552(a)(3)(A). FOIA “was enacted to facilitate public access to [g]overnment documents” and
“pierce the veil of administrative secrecy and to open
agency action to the light of public scrutiny.” Dep’t of
State v. Ray, 502 U.S. 164, 173 (1991) (citations and
internal quotation marks omitted). An agency may
avoid disclosure only if it proves that the requested
documents fall within one of nine enumerated exemptions. See 5 U.S.C. § 552(b)(1)-(9); see also Lane v.
Dep’t of Interior, 523 F.3d 1128, 1137 (9th Cir. 2008).
At issue on appeal is whether: (1) the FAA adequately
searched for records in response to Rojas’s FOIA request; (2) the FAA properly withheld three documents
under Exemption 5 of FOIA, 5 U.S.C. § 552(b)(5); and
(3) the FAA properly construed the scope of Rojas’s
FOIA request.

78a
A. Search for Responsive Documents3
Under FOIA, an agency responding to a request
must “demonstrate that it has conducted a search reasonably calculated to uncover all relevant documents.” Hamdan v. Dep’t of Justice, 797 F.3d 759, 770
(9th Cir. 2015) (citation and internal quotation marks
omitted). “[T]he issue to be resolved is not whether
there might exist any other documents possibly responsive to the request, but rather whether the search
for those documents was adequate.” Zemansky v.
EPA, 767 F.2d 569, 571 (9th Cir. 1985) (emphasis in
original) (citation and internal quotation marks omitted). “The adequacy of the agency’s search is judged
by a standard of reasonableness, construing the facts
in the light most favorable to the requestor.” Citizens
Comm’n on Human Rights v. Food & Drug Admin., 45
F.3d 1325, 1328 (9th Cir. 1995) (citation omitted). We
conclude that the FAA failed to conduct a search reasonably calculated to uncover all relevant documents.
Rojas’s FOIA request sought “information regarding the empirical validation” of the BA that was
The FAA argues that the parties stipulated before the district
court that “the only issue in the case concerned the legal basis
for the FAA’s decision to withhold the responsive records.” While
the parties “indicated their agreement that the only issue in the
case concerned the legal basis for the FAA’s decision to withhold
the responsive records,” Rojas argued before the district court
that the FAA conducted an inadequate search, the district court
held that Rojas failed to “show a genuine issue of material fact
regarding whether the search conducted by the FAA was adequate under FOIA,” and both parties briefed the issue on appeal
and argued reasonableness at oral argument. Therefore, the reasonableness of the FAA’s search is properly before the Court.
3

79a
described in his rejection notice, including “any report
created by, given to, or regarding APTMetrics’ evaluation and creation and scoring” of the BA. In response,
the Office of the Chief Counsel located summaries of:
(1) the Air Traffic Control Specialist hiring process;
(2) the 2015 BA; and (3) the validation process and results of the 2015 BA. All of these records were created
by APTMetrics.
“[T]he government may demonstrate that it undertook an adequate search by producing reasonably
detailed, nonconclusory affidavits submitted in good
faith.” Lane, 523 F.3d at 1139 (citation and internal
quotation marks omitted). Affidavits must be “relatively detailed in their description of the files
searched and the search procedures.” Zemansky, 767
F.2d at 573 (internal quotation marks omitted). The
agency must show that it searched for the requested
records “using methods which can be reasonably expected to produce the information requested.” Oglesby
v. Dep’t of the Army, 920 F.2d 57, 68 (D.C. Cir. 1990).
The FAA’s declarations did not sufficiently describe the agency’s search procedures. The declaration of Yvette Armstead, the FAA’s Assistant Chief
Counsel, states that the agency “conducted a search
for documents responsive to [Rojas]’s FOIA request”
on two occasions—both initially and on remand from
Rojas’s administrative appeal. Armstead further explains that the search was “reasonably calculated to
obtain responsive records” because attorneys at the
Office of the Chief Counsel who provided legal advice
on revisions to the Air Traffic Control Specialist hiring process “were asked to review their records.” Attorneys located “[t]hree responsive documents”

80a
comprised of nine pages in total that “discuss[] the
validation of the 2015 BA.”
Armstead’s declaration is conclusory. It omits relevant details, such as names of the attorneys who
searched the relevant documents and the amount of
time the Office of the Chief Counsel devoted to the
search. See Citizens Comm’n on Human Rights, 45
F.3d at 1328 (concluding that agency’s search was adequate where its declaration stated that the agency
spent over 140 hours reviewing documents in response to the plaintiff’s FOIA request). The documents the FAA located included summaries of the Air
Traffic Control Specialist hiring process, the 2015 BA,
and the validation process and results of the 2015 BA.
But summaries by necessity summarize something
else; there is no indication that there was any search
conducted for underlying documents. Thus, though
Armstead’s declaration establishes that appropriate
employees were contacted and briefly describes the
files that were discovered, it does not demonstrate
that the FAA’s search could reasonably be expected to
produce the information requested—here, “information regarding the empirical validation of the biographical assessment noted in Rojas’s rejection notification.” Construing the facts in the light most favorable to Rojas, the FAA has not shown “that it undertook an adequate search,” Lane, 523 F.3d at 1139.
B. FOIA Exemption 5
Per Exemption 5, FOIA’s disclosure requirements
do not apply to “inter-agency or intra-agency memorandums or letters that would not be available by law
to a party other than an agency in litigation with the

81a
agency.” 5 U.S.C. § 552(b)(5). The exemption allows
the government to withhold records that are “normally privileged in the civil discovery context[,]” such
as documents covered by the attorney work-product
privilege. Nat’l Labor Relations Bd. v. Sears, Roebuck
& Co., 421 U.S. 132, 149 (1975); see Maricopa Audubon Soc’y v. U.S. Forest Serv., 108 F.3d 1089, 1092
(9th Cir. 1997). It prevents FOIA from being used to
circumvent litigation privileges. United States v. Weber Aircraft Corp., 465 U.S. 792, 801-02 (1984).
The threshold question under Exemption 5 is
whether the records qualify as “inter-agency or intraagency memorandums or letters.” 5 U.S.C.
§ 552(b)(5); Dep’t of Interior v. Klamath Water Users
Protective Ass’n, 532 U.S. 1, 12 (2001). By its plain
terms, Exemption 5 applies only to records that the
government creates and retains. However, a number
of our sister circuits have adopted a functional interpretation of Exemption 5 that treats documents produced by an agency’s third-party consultant as “intraagency” memorandums. This functional interpretation, called the consultant corollary, recognizes that a
third-party consultant may perform certain functions
on behalf of a government agency. The consultant corollary treats communications from third-party consultants as “intra-agency” memorandums under Exemption 5, as if those communications came from the
agency itself.
The district court seems to have relied on the consultant corollary in determining that the FAA
properly invoked Exemption 5 in this case. It reasoned that “courts have upheld the application of
FOIA Exemption 5 to materials composed and

82a
supplied by outside contractors.” At the same time,
the court concluded that the records “constitute interagency memoranda created by a government agency.”
The description of the documents as “inter-agency
memoranda” is incorrect. APTMetrics is not a government agency. See 5 U.S.C. §§ 551(1) (defining agency),
552(f) (same). Therefore, the exchange of records between it and the FAA cannot be an inter-agency exchange. See Black’s Law Dictionary (10th Ed. 2014)
(defining the preposition “inter” as “among”). Under
the consultant corollary, to which the district court’s
reasoning alludes, the documents would be classified
as “intra-agency.”
We have yet to adopt the consultant corollary in
this Circuit, though we have previously acknowledged
it.4 Here, the role of APTMetrics as a consultant to the
FAA is undisputed. Therefore, we must now decide
whether to adopt the consultant corollary to Exemption 5. Because the consultant corollary is contrary to

In an unpublished memorandum disposition, Center for Biological Diversity v. Office of U.S. Trade Representative, 450 F. App’x
605, 607 (9th Cir. 2011) (mem. disp.), agency communications
with private third parties had been withheld under Exemption 5. After expressing that “[t]his fact alone suggests [the communications] do not meet Exemption 5’s threshold requirement[,]” we nonetheless described that certain third-party communications may fall within Exemption 5 under the consultant
corollary. Id. at 608. The case was then remanded to develop the
record on the relationships between the agency and the third
parties. Id. at 609. Because the record was unclear as to whether
the third parties were “consultants,” the case did not require us
to decide the validity of the consultant corollary in this Circuit.

4

83a
Exemption 5’s text and FOIA’s purpose to require
broad disclosure, we decline to do so.
The consultant corollary contravenes Exemption 5’s plain language. Statutory interpretation “begins with the plain language of the statute.” Eleri v.
Sessions, 852 F.3d 879, 882 (9th Cir. 2017) (citation
and internal quotation marks omitted). “When an examination of the plain language of the statute, its
structure, and purpose clearly reveals congressional
intent, our judicial inquiry is complete.” Id. (citation
and internal quotation marks omitted). Exemption 5
protects only “inter-agency or intra-agency memorandums or letters.” 5 U.S.C. § 552(b)(5) (emphasis
added). An “agency,” with some exceptions not relevant here, is defined as “each authority of the Government of the United States, whether or not it is within
or subject to review by another agency.” 5 U.S.C.
§ 551(1). More specifically, an agency “includes any
executive department, military department, Government corporation, Government controlled corporation, or other establishment in the executive branch
of the Government (including the Executive Office of
the President), or any independent regulatory
agency.” 5 U.S.C. § 552(f). A third-party consultant,
then, is not an agency as that word is used in FOIA,
generally, or Exemption 5, particularly. Indeed, “neither the terms of the exemption nor the statutory definitions say anything about communications with outsiders.” Klamath, 532 U.S. at 9.
In contrast, two other FOIA exemptions explicitly
protect communications with outsiders. Exemption 4
applies to “trade secrets and commercial or financial
information obtained from a person and privileged or

84a
confidential.” 5 U.S.C. § 552(b)(4) (emphasis added).
Exemption 8 applies to information “contained in or
related to examination, operating, or condition reports prepared by, on behalf of, or for the use of an
agency responsible for the regulation or supervision of
financial institutions.” 5 U.S.C. § 552(b)(8) (emphasis
added). That these exemptions contemplate information from third parties, while Exemption 5 is limited to “inter-agency or intra-agency” communications, makes clear that Exemption 5 applies only to
records that originate and remain inside the government. See Weber, 465 U.S. at 804 (“We therefore
simply interpret Exemption 5 to mean what it says.”).
Thus, the consultant corollary expands Exemption 5’s
protections beyond the plain text of FOIA.
The dissent attempts to resolve the consultant
corollary’s tension with the statutory text by conflating the term “intra-agency memorandums,” as used in
Exemption 5, with “agency records,” as used elsewhere in FOIA. The dissent also construes “intraagency” to mean records held within an agency, even
though they may have originated with a third-party
consultant. But that renders superfluous the term
“inter-agency” as used alongside “intra-agency” in Exemption 5. And, if Congress intended Exemption 5 to
extend to all “agency records,” it would have used that
term, see 5 U.S.C. § 552(f)(1), (2), rather than the narrower “inter-agency or intra-agency memorandums or
letters,” § 552(b)(5).
In addition to contravening the statutory text, the
consultant corollary also undermines the purpose of
FOIA. The dissent insists that civil discovery rules
dictate the scope of Exemption 5. But FOIA “sets forth

85a
a policy of broad disclosure of Government documents
in order ‘to ensure an informed citizenry, vital to the
functioning of a democratic society.’” FBI v. Abramson, 456 U.S. 615, 621 (1982) (quoting Nat’l Labor Relations Bd. v. Robbins Tire & Rubber Co., 437 U.S.
214, 242 (1978)). “[D]isclosure, not secrecy, is the
dominant objective of the Act.” Dep’t of Air Force v.
Rose, 425 U.S. 352, 361 (1976). Accordingly, the exemptions are construed narrowly. See id. at 361; Dep’t
of Justice v. Tax Analysts, 492 U.S. 136, 151 (1989);
Abramson, 456 U.S. at 630. Congress has instructed
as much with the statutory language that the exemptions do “not authorize withholding of information or
limit the availability of records to the public, except as
specifically stated in this section.” 5 U.S.C. § 552(d)
(emphasis added). The consultant corollary allows the
government to withhold more documents than contemplated by Exemption 5, contrary to FOIA’s policy
favoring disclosure and its mandate to interpret exemptions narrowly.
The cases adopting the consultant corollary do little to confront its inconsistency with both the text and
purpose of FOIA. The opinion in which it originates,
the 1971 D.C. Circuit case Soucie v. David, 448 F.2d
1067 (D.C. Cir. 1971), does not even address the statutory text. Soucie concerned a FOIA request for the
Garwin Report, an “independent assessment” on supersonic transport aircraft produced by a panel of outside experts for the Office of Science and Technology.
Id. at 1070. The issue on appeal was whether the Office of Science and Technology was an “agency” subject to FOIA’s disclosure requirements. Id. at 1075.
The D.C. Circuit held that the Office of Science and
Technology was an agency and remanded the case for

86a
the district court to consider whether the Garwin Report fell within any of FOIA’s exemptions. Id. at
1075-76. First, though, the court posited that Exemption 5 may apply. Id. at 1076-77. In a footnote, the
court summarily reasoned that Exemption 5’s purpose supported applying it to records prepared by
third-party consultants:
The rationale of the exemption for internal
communications indicates that the exemption should be available in connection with
the Garwin Report even if it was prepared
for an agency by outside experts. The Government may have a special need for the
opinions and recommendations of temporary
consultants, and those individuals should be
able to give their judgments freely without
fear of publicity. A document like the Garwin Report should therefore be treated as an
intra-agency memorandum of the agency
which solicited it.
Id. at 1078 n.44. The court cited no authority for these
propositions. Nor did it acknowledge, never mind reconcile, FOIA’s text and purpose.
In Wu v. National Endowment for Humanities,
460 F.2d 1030, 1032 (5th Cir. 1972), the Fifth Circuit
cited Soucie’s unsourced footnote to hold that Exemption 5 protected evaluations prepared by outside experts for the National Endowment for the Humanities. Wu reasoned that protecting third-party communications furthered Exemption 5’s policy of “encouraging full and candid intra-agency discussion, and
shielding from disclosure the mental processes of

87a
executive and administrative officers.” Id. at 1034
(quoting Int’l Paper Co. v. Fed. Power Comm’n, 438
F.2d 1349 (2d Cir. 1971)). But, like Soucie, the opinion
did not reconcile its holding with FOIA’s broader policy favoring disclosure or Exemption 5’s textual limits.
Together, Soucie and Wu form the basis for the
consultant corollary. Later opinions adopting the consultant corollary cite to the two cases. See Hoover v.
Dep’t of the Interior, 611 F.2d 1132, 1138 (5th Cir.
1980); Lead Indus. Ass’n, Inc. v. OSHA, 610 F.2d 70,
83 (2d Cir. 1979); Ryan v. Dep’t of Justice, 617 F.2d
781, 790 (D.C. Cir. 1970); Martin Marietta Aluminum,
Inc. v. Gen. Servs. Admin., 444 F. Supp. 945, 949 (C.D.
Cal. 1977). Or, they cite to cases that in turn cite
Soucie and Wu. See Gov’t Land Bank v. Gen. Servs.
Admin., 671 F.2d 663, 665 (1st Cir. 1982) (citing Hoover, 611 F.2d at 1137-38). That other courts readily
signed onto the consultant corollary does not compensate for its shaky foundation. And relying on the doctrine’s proliferation to adopt it now would be the result of judicial inertia, rather than reasoned consideration.
The Supreme Court acknowledged, but did not
adopt, the consultant corollary in the 2001 case Department of Interior v. Klamath Water Users Protective Association. In Klamath, the Court commented
that “[a]lthough neither the terms of the exemption
nor the statutory definitions say anything about communications with outsiders, some Courts of Appeals
have held that in some circumstances a document prepared outside the Government may nevertheless
qualify as an ‘intra-agency’ memorandum under

88a
Exemption 5.” Id. at 9 (citations omitted). The Court
also quoted the dissent in Department of Justice v.
Julian, 486 U.S. 1 (1988), in which Justice Scalia accepted the consultant corollary’s purposive reading of
Exemption 5:
It is textually possible and … in accord with
the purpose of the provision, to regard as an
intra-agency memorandum one that has
been received by an agency, to assist it in the
performance of its own functions, from a person acting in a governmentally conferred capacity other than on behalf of another
agency—e.g., in a capacity as employee or
consultant to the agency, or as employee or
officer of another governmental unit (not an
agency) that is authorized or required to provide advice to the agency.
Klamath, 532 U.S. at 9-10 (quoting Julian, 486 U.S.
at 18 n.1 (Scalia, J., dissenting)). Curiously, the Klamath Court did not discuss the propriety of the consultant corollary and neither adopted nor rejected it.
Instead, the Court explained that the term “intraagency” in Exemption 5 is not “purely conclusory” and
warned that there is “no textual justification for
draining the first condition of independent vitality.”
Id. at 12 (majority opinion). The Court then narrowly
held that, “at the least[,]” the consultant corollary
does not apply to communications from interested
parties who consult with the government for their
own benefit. Id. at 12, 12 n.4. In a footnote, the Court
admonished two D.C. Circuit opinions, Public Citizen,
Inc. v. Department of Justice, 111 F.3d 168 (D.C. Cir.

89a
1997) and Ryan v. Department of Justice, 617 F.2d
781 (D.C. Cir. 1980), as “instances of intra-agency
consultants that arguably extend beyond what we
have characterized as the typical examples.” Id. at 12
n.4. However, the Court provided no further guidance
as to the proper scope of Exemption 5. Klamath, then,
appears to instruct that courts should be more rigorous in analyzing whether an outside party’s records
satisfy Exemption 5’s threshold “intra-agency” requirement before analyzing whether the records are
privileged. See Hunton & Williams v. Dep’t of Justice,
590 F.3d 272, 283-84 (4th Cir. 2010) (describing that
Klamath requires the first step of Exemption 5 to be
“more carefully scrutinized”).
Since the Supreme Court’s decision in Klamath,
the Fourth and Tenth Circuits have adopted the consultant corollary. See Hanson v. USAID, 372 F.3d 286
(4th Cir. 2004); Stewart v. Dep’t of Interior, 554 F.3d
1236, 1245 (10th Cir. 2009). Most recently, though,
the Sixth Circuit rejected it in Lucaj v. Federal Bureau of Investigation, 852 F.3d 541 (6th Cir. 2017).
Lucaj concerned a FOIA request for documents
that the FBI had sent to foreign governments to secure their assistance in investigating Lucaj’s role in
political attacks in Montenegro. Id. at 543-44. The
FBI argued that the documents were protected from
disclosure under Exemption 5 pursuant to the “common interest doctrine,” which “permits parties whose
legal interests coincide to share privileged materials
with one another in order to more effectively prosecute or defend their claims.” Id. at 545 (quoting
Hunton & Williams, 590 F.3d at 277-78). The Sixth
Circuit, relying on Klamath’s instruction that “the

90a
first condition of Exemption 5 is no less important
than the second,” applied a strict statutory interpretation to conclude that documents sent by a government agency to a foreign government are neither “intra-” nor “inter-agency” memoranda within the meaning of the Exemption. Id. at 547 (quoting Klamath,
532 U.S. at 9). The court then explicitly rejected the
consultant corollary as contrary to Exemption 5’s
plain text and the mandate to construe FOIA’s exemptions narrowly. Id. at 549. In doing so, the court relied
on Klamath’s instruction not to ignore Exemption 5’s
threshold inquiry.
Lucaj reads Klamath’s focus on the threshold
question under Exemption 5 as essentially foreclosing
the consultant corollary. We disagree that Klamath
can be interpreted so conclusively. Rather, we understand Klamath as leaving open whether the consultant corollary is a proper application of Exemption 5.
We conclude that it is not. As described above, the
consultant corollary is contrary to Exemption 5’s text
and FOIA’s policy of broad disclosure, and its legal
foundation—the unsourced footnote in Soucie—is tenuous at best. While the dissent is critical of the Sixth
Circuit decision, Lucaj provides a reasoned discussion
of the interplay between the consultant corollary, the
language of Exemption 5, and the purpose of FOIA.
That is more than can be said of Soucie and its progeny.
Proponents of the consultant corollary may argue
that rejecting it allows parties to use FOIA to circumvent civil litigation privileges. Indeed, Congress enacted the exemptions because it “realized that legitimate governmental and private interests could be

91a
harmed by release of certain types of information.”
Abramson, 456 U.S. at 621. Even so, full disclosure is
the guiding principal in interpreting FOIA. See Rose,
425 U.S. at 361. We are not convinced that the potential harm to the government warrants adopting the
consultant corollary’s broad reading of Exemption 5.
While today’s holding means some privileged documents from third-party consultants will be subject to
disclosure under FOIA, the dissent’s suggestion that
it will open the floodgates is speculative. And, absent
the consultant corollary, agencies can still avoid disclosure under Exemption 5 by keeping potentially
privileged material within the government. If this
proves unworkable, as the dissent argues, the proper
remedy lies with Congress, not the courts.
Because we reject the consultant corollary, the
records at issue can no longer be considered “intraagency” documents, and Exemption 5 does not apply.
Thus, we need not address whether the records would
be privileged under Exemption 5’s second step.
C. Scope of the FOIA Request
Rojas challenges the district court and the FAA’s
interpretation of the scope of his FOIA request. Specifically, Rojas argues that the FAA has an obligation
under FOIA to retrieve any responsive documents,
such as the underlying data to the summaries, held
by APTMetrics. However, FOIA places no such obligation on an agency.
FOIA empowers federal courts “to enjoin the
agency from withholding agency records and to order
the production of any agency records improperly

92a
withheld from the complainant.” 5 U.S.C.
§ 552(a)(4)(B). As discussed above, an agency is “any
executive department, military department, Government corporation, Government controlled corporation, or other establishment in the executive branch
of the Government (including the Executive Office of
the President), or any independent regulatory
agency.” 5 U.S.C. § 552(f)(1). A “record” is “any information that would be an agency record subject to the
requirements of this section when maintained by an
agency in any format, including an electronic format”
along with “any information … that is maintained for
an agency by an entity under Government contract,
for the purposes of records management.” 5 U.S.C.
§ 552(f)(2). FOIA does not define “agency record.” See
Forsham v. Harris, 445 U.S. 169, 178 (1980).
The Supreme Court has held that for a document
to be an “agency record” under FOIA, the agency must
(1) “‘either create or obtain’ the requested materials,”
and (2) “the agency must be in control of the requested
materials at the time the FOIA request is made.” Tax
Analysts, 492 U.S. at 144-45 (quoting Forsham, 445
U.S. at 182). That an agency has a right to obtain a
document does not render the document an agency
record. Id. at 144. “FOIA applies to records which
have been in fact obtained, and not to records which
merely could have been obtained.” Id. (emphasis in
original) (quoting Forsham, 445 U.S. at 186).
To be sure, the bright line definition of agency records as those “which have been in fact obtained” allows the government to avoid disclosure by parking
documents with third parties. We share the concerns
Justice Brennan articulated when he dissented from

93a
the adoption of a bright line definition. Specifically,
Justice Brennan expressed that
the understandable tendency of agencies to
rely on nongovernmental grantees to perform myriad projects distances the electorate from important information by one
more step. If the records of such organizations, when drawn directly into the regulatory process, are immune from public inspection, then government by secrecy must
surely return.
Forsham, 445 U.S. at 191 (Brennan, J., dissenting).
These concerns are particularly pertinent in this case,
which involves a federal agency delegating its duty to
establish hiring criteria to an outside consultant. But
we are bound by the Supreme Court’s precedent. And
under that precedent, the records held by APTMetrics
that have not been transmitted to the FAA are beyond
the reach of FOIA. That the FAA is not obligated to
search APTMetrics for responsive documents does not
relieve its duty to conduct a reasonable search of its
own records, as discussed above.
CONCLUSION
The district court erred by entering summary
judgment in favor of the FAA. The FAA has not shown
it conducted a search reasonably calculated to uncover all relevant documents in response to Rojas’s
FOIA request, and we join the Sixth Circuit in rejecting the consultant corollary to Exemption 5. We REVERSE the judgment of the district court and

94a
REMAND for further proceedings consistent with
this opinion. Rojas’s motion for judicial notice is DENIED.
CHRISTEN, Circuit Judge, concurring in part and
dissenting in part:
I agree with the majority that Rojas cannot use
the Freedom of Information Act (FOIA) to access materials that the FAA does not actually possess, and I
agree that the scope of the FAA’s in-house search for
responsive documents was inadequate.
I disagree with the majority’s rejection of the “consultant corollary”—a doctrine adopted by seven of our
sister circuits. The “consultant corollary” acknowledges that Exemption 5’s protection of privileged documents extends to materials prepared by an agency’s
retained consultants. This allows agencies to shield
privileged materials from disclosure to the same extent they would in discovery. By rejecting the consultant corollary, the majority gives the FOIA a truly capacious scope. After today, the fact that a document
was prepared in anticipation of litigation by a government-retained consultant will present no barrier to
anyone who wants to access it by filing a FOIA request.
Our court has not had an occasion to squarely address the consultant corollary in a published opinion.
Now that the question is presented, we should follow
the First, Second, Fourth, Fifth, Eighth, Tenth, and
D.C. Circuits, all of which adopted the consultant corollary to shield work product generated by the government’s outside consultants in anticipation of

95a
litigation.1 Because the majority’s decision rejects the
corollary, upends basic discovery rules, and disregards the careful balance Congress struck when it enacted the FOIA, I respectfully dissent.
***
The circumstances in which the present dispute
arose provide critical context for its resolution. In
2012, the FAA undertook a comprehensive review of
the Air Traffic Control Specialist selection and hiring
process and hired APTMetrics, a human resource consulting firm, to assist in that effort. APTMetrics modified a biographical assessment tool the FAA used to
test job-related characteristics. In 2014, the FAA implemented a refined process for selecting air traffic
controllers, incorporating APTMetrics’s recommendations. Following the implementation of the FAA’s new
process, an unsuccessful applicant filed an Equal Employment Opportunity Commission (EEOC) complaint, seeking to represent a class of unsuccessful air
traffic controller applicants. That putative class is
represented by Mr. Rojas’s counsel. The FAA then revised the biographical assessment for use in 2015, and
APTMetrics worked on those revisions.

See Soucie v. David, 448 F.2d 1067, 1078 n.44 (D.C. Cir. 1971);
Gov’t Land Bank v. Gen. Serv. Admin., 671 F.2d 663, 666 (1st
Cir. 1982); Lead Indus. Ass’n Inc. v. OSHA, 610 F.2d 70, 83 (2nd
Cir. 1979); Hanson v. U.S. Agency for Int’l. Dev., 372 F.3d 286,
292-93 (4th Cir. 2004); Hoover v. U.S. Dept. of the Interior, 611
F.2d 1132, 1137 (5th Cir. 1980); Brockway v. Dept. of Air Force,
518 F.2d 1184, 1194 (8th Cir. 1982); Stewart v. U.S. Dep’t of Interior, 554 F.3d 1236, 1245 (10th Cir. 2009).
1

96a
Meanwhile, in anticipation of the pending EEOC
litigation, the FAA asked the Chief Operating Officer
of APTMetrics to prepare a summary of its validation
work. APTMetrics delivered an initial summary in
December of 2014 and supplemented it the following
month. By August of 2015, a second group of unsuccessful applicants filed a complaint and petition for
class certification, this time challenging the 2015 biographical assessment. The second putative class is
also represented by Mr. Rojas’s lawyer.
Mr. Rojas applied, but was not hired, to be an air
traffic control specialist in 2015. He later filed a FOIA
request seeking information about the biological assessment’s empirical validation and its “evaluation
and creation and scoring.”2 The FAA conducted a
search and found three documents that APTMetrics
created at the FAA’s request and in anticipation of litigating the EEOC complaints. The FAA withheld the
three documents pursuant to FOIA’s Exemption 5,
which exempts from disclosure “inter-agency or intraagency memorandums or letters that would not be
available by law to a party … in litigation with the
agency.” 5 U.S.C. § 552(b)(5). The FAA claimed the
withheld documents were protected attorney-client

Mr. Rojas’s request sought three categories of information, but
the parties stipulated that the only category at issue in this appeal is the request for information regarding: “[T]he empirical
validation of the biographic assessment noted in the rejection
notification,” including “any report, created by, given to, or regarding APTMetrics’s evaluation and creation and scoring of the
assessment.”
2

97a
communications and work product, and that they
were pre-decisional and deliberative.
Mr. Rojas filed an administrative appeal and,
eventually, a complaint in district court challenging
the denial of his FOIA request. The district court conducted an in camera review, ruled that the FAA’s
search for records was reasonable, and granted summary judgment in favor of the government. The court
described the withheld documents as “summaries of
[1] the [air traffic control] hiring process, [2] the 2015
biographic assessment, and [3] the validation process
and results.”
Our review of the district court’s order granting
summary judgment is governed by several well-established principles that the majority does not dispute.
First, we know that materials prepared in anticipation of litigation and at the request of an attorney are
protected work product and need not be produced in
litigation. See, e.g., Hickman v. Taylor, 329 U.S. 495,
510-11 (1947). Second, in the context of civil discovery, we have long recognized that work-product protection extends to materials created by consultants or
third-party experts. See, e.g., United States v. Nobles,
422 U.S. 225, 238 (1975); see also Fed. R. Civ. P.
26(b)(4) (exempting draft expert reports, communications with expert witnesses, and consulting experts
materials from discovery). Third, the Supreme Court
has explained that FOIA’s Exemption 5 precludes the
disclosure of information that would be privileged in
litigation. See United States v. Weber Aircraft Corp.,
465 U.S. 792, 799-802 (1984) (explaining that certain
air crash safety investigation materials could be withheld pursuant to FOIA’s Exemption 5 because courts

98a
had previously recognized that those materials were
privileged in discovery). These principles alone dictate the appropriate resolution in this case: because
the validation summaries would not be available to
Mr. Rojas in discovery, he cannot acquire them
through a FOIA request.3
The majority concludes that Exemption 5 only
shields materials generated by federal agencies inhouse, not those created by the government’s retained
consultants. Seven other circuits have considered this
argument and rejected it. These circuits all adopted
the “consultant corollary,” agreeing that Exemption 5
reflects Congress’s determination that the government is entitled to the same litigation privileges afforded to other parties. Indeed, the propriety of the
consultant corollary was foreshadowed by well-recognized precedent defining the scope and proper application of litigation privileges and protections. The Supreme Court has “consistently rejected” the suggestion that parties in litigation with the government
“can obtain through the FOIA material that is normally privileged” or use FOIA requests “to supplement civil discovery.” Id. at 801-02 (“We do not think
that Congress could have intended that the weighty
policies underlying discovery privileges could be so
easily circumvented.”). All of these authorities lead to
the conclusion that the FOIA does not require federal

The district court said the validation summaries were “interagency memorandums,” but its reasoning (and supporting authority) clearly related to “intra-agency” memoranda. For reasons explained here, the withheld documents plainly qualify for
Exemption 5 protection as “intra-agency” memoranda.
3

99a
agencies to produce retained experts’ work product
created in anticipation of litigation.
I.
Congress enacted the Freedom of Information Act
in 1966 as a means of increasing transparency and
broadening access to government materials. “FOIA
‘sets forth a policy of broad disclosure of Government
documents in order to ensure an informed citizenry[.]’” Ante at 15 (quoting FBI v. Abramson, 456
U.S. 615, 621 (1982)). But long before Congress
passed the FOIA, courts and legislatures recognized
that parties to litigation are entitled to shield certain
materials from discovery and disclosure. For example,
there is no question that litigants need not produce
materials covered by the attorney-client privilege or
documents that constitute attorney work-product, including those prepared by the party’s agents and consultants. See, e.g., Hickman, 329 U.S. at 510-11 (work
product materials are protected); Cont’l Oil Co. v.
United States, 330 F.2d 347, 350 (9th Cir. 1964) (attorney-client privilege is protected); Nobles, 422 U.S.
at 238 (work product encompasses material prepared
by attorney’s investigators and other agents in anticipation of litigation); see also Fed. R. Civ. P. 26(b)(4)
advisory committee’s note to the 1970 amendment.
Congress was well aware of discovery privileges
when it drafted the Freedom of Information Act, and
it recognized that certain exceptions to FOIA’s disclosure regime were necessary in order for the government’s many agencies to operate effectively. See S.
Rep. No. 89-813, at 9 (1965) (acknowledging that government efficiency “would be greatly hampered” if

100a
agencies were “forced to ‘operate in a fishbowl.’”).
FOIA’s exemptions reflect careful balancing between
the benefits of transparency and the government’s
need to maintain the confidentiality of some types of
records. For example, FOIA exemptions allow federal
agencies to withhold classified materials (Exemption 1), trade secrets (Exemption 4), and internal personnel and medical files (Exemption 6). See generally
5 U.S.C. § 552(b)(1)-(9).
Exemption 5 has been described as the most important of FOIA’s exemptions.4 It specifically precludes the disclosure of inter-or intra-agency materials “that would not be available by law” to adverse
parties in litigation. 5 U.S.C. § 552(b)(5); see Weber,
465 U.S. at 801. Rojas does not dispute that Exemption 5 shields attorney work-product created by government agency staff, and this concession is not surprising. There was nothing novel about Exemption 5’s
carve out; without it, the FOIA would have obliterated
a common law rule dating back decades. F.T.C. v. Grolier Inc., 462 U.S. 19, 20 (1983) (“It is well established
that this exemption was intended to encompass the
attorney work-product rule.”).
Given this backdrop, the resolution of Rojas’s appeal should be straightforward: he is not entitled to
the APTMetrics documents because the FAA’s consultant prepared them at the FAA’s request, and in
anticipation of litigation. This result would be the
See 33 Fed. Prac. & Proc. Judicial Review § 8441 (1st ed.) (“The
Freedom of Information Act provides nine exemptions from the
disclosure requirements … These are, in order of importance, 5,
7, 1, 3, and 2.”).
4

101a
same whether the materials were prepared by an FAA
employee sitting in an FAA cubicle, or by a consultant
hired to do the same thing. We need look no further
than Exemption 5 to know that the FAA was not required to disclose the three withheld documents. See
5 U.S.C. § 552(b)(5).
II.
The majority reviews the text of Exemption 5, decides that consultants do not qualify as “agencies,”
and concludes that FAA’s consultant-prepared materials are not “intra-agency memorandums” within the
scope of Exemption 5. See Ante at 13-14.
I read the statute differently. Exemption 5 states
that FOIA’s disclosure requirement “does not apply”
to “inter-agency or intra-agency memorandums or letters that would not be available by law to a party
other than an agency in litigation with the agency[.]”
5 U.S.C. § 552(b)(5). The Supreme Court has explained that the phrases “an agency” and “the agency”
in Exemption 5 refer to the same entity. See Weber,
465 U.S. at 798 (explaining that a plaintiff could not
access privileged documents through a FOIA request
because “they would not be available by law to a party
other than [the Air Force] in litigation with [the Air
Force].”) (alternation in original) (internal quotation
marks omitted).
Nothing in Exemption 5’s text requires that the
materials be created by the agency itself, nor do the
statute’s definitions dictate that an “intra-agency
memorandum” includes only those materials that
agency employees (as opposed to retained

102a
consultants) prepare in-house. Here, the FAA specifically engaged APTMetrics to use its expertise to create biometric summaries on behalf of the FAA. The
FAA took possession, reviewed and relied on the summaries, then stored and maintained them. For all intents and purposes, the three withheld documents are
the FAA’s memoranda and we should treat them just
as we would treat a memorandum created by an internal FAA employee.
An agent acts “on the principal’s behalf,” meaning
the agent’s acts are the principal’s acts. See Agency,
Black’s Law Dictionary (10th ed. 2014). The nature of
an agent-principal relationship requires that the
“agent’s actions have legal consequences for the principal[,]” id., and we have recognized that consultants
are agents whose statements can bind their paying
clients. See Reid Bros. Logging Co. v. Ketchikan Pulp
Co., 699 F.2d 1292, 1306 (9th Cir. 1983) (finding that
a consultant’s report, distributed to a party in litigation, was properly introduced as a party admission
under Fed. R. Evid. 801(d)(2)(C)). Because the FAA
retained APTMetrics as a consultant and paid it to
prepare the sought-after biometric assessment summaries in anticipation of class action litigation, those
summaries should be treated as if FAA employees
prepared them. Unless we ignore the entirety of the
statute, its legislative history, analogous case law,
and controlling case law addressing the limits of permissible discovery, the documents must be afforded
Exemption 5 protection.
The actual text of Exemption 5 easily encompasses the requested materials because Exemption 5
protects “intra-agency memorandums[.]” Of course,

103a
“intra” simply means “within,” see intra, The American Heritage Dictionary of the English Language
(1978), and we know that the FAA paid APTMetrics
to prepare the summaries on its behalf. The agency
received the summaries, and as far as we can tell it
has been maintaining and storing them ever since.
The responsive documents are therefore “within” the
FAA in both a physical and proprietary sense, so the
FAA’s consultant-created memoranda are “intraagency memorandums,” strictly and textually speaking.
FOIA’s broader statutory framework also indicates that the FAA’s consultant-prepared materials
are entitled to Exemption 5’s protection. The FOIA
defines “record” and explains that the materials that
would qualify as “an agency record” include information “maintained by an agency in any format[.]” 5
U.S.C. § 552(f)(2). This is consistent with the Supreme Court’s opinion in Forsham v. Harris, where
the Court defined FOIA’s “agency records” (through
reference to similar statutes) as materials “made or
received by an agency[,]” and “created or received” by
the government. 445 U.S. 169, 182-86 (1980) (emphasis in original). Forsham further explained that “[t]he
legislative history of the FOIA abounds with other references to records acquired by an agency.” Id. at 184
(emphasis added). There is no dispute that the FAA
received APTMetrics’s summaries and that it remains
in possession of them. As such, those summaries necessarily constitute “agency records” pursuant to
FOIA’s definitions.
Today’s opinion divorces “agency records” from
“intra-agency memorandums,” and reaches the

104a
paradoxical conclusion that the three withheld documents are not “intra-agency memorandums” even
though they certainly fall within the definition of
“agency records.” It is difficult to conjure an adequate
rationale or a holistic reading of the statutory text by
which all “agency records” fall within FOIA’s scope
but only an arbitrary subset of privileged “agency records” are protected by Exemption 5.
In the majority’s view, the consultant corollary ignores FOIA’s distinction between intra-and interagency materials. Ante at 14. But distinguishing between those two categories is simple if the consultant
corollary is properly applied: Exemption 5 encompasses materials prepared in-house or by an agency’s
consultant, and the materials are either “intra-” or
“inter-agency” depending on whether they are shared
outside the agency.
Parties engaged in litigation with the government
will use today’s ruling to circumvent the government’s
claims of work product, attorney-client communication or any other privilege recognized by our discovery
rules, even though the federal rules expressly bar discovery into those kinds of materials, see Fed. R. Civ.
P. 26(b)(4)(D), and despite the long-established rule
that the government is entitled to the same litigation
privileges as other parties. In re Lindsey, 158 F.3d
1263, 1269 (D.C. Cir. 1998) (“Congress intended that
agencies should not lose the protection traditionally
afforded through the evidentiary privileges simply

105a
because of the passage of the FOIA.”)5; NLRB v.
Sears, Roebuck & Co., 421 U.S. 132, 154 (1975) (“It is
equally clear that Congress had the attorney’s workproduct privilege specifically in mind when it adopted
Exemption 5 and that such a privilege had been recognized in the civil discovery context by the prior case
law.”).
Today’s decision only disadvantages the government; the privileges afforded to non-government parties will remain intact because only the government
responds to FOIA requests. Thus, the decision simultaneously puts the government at a stark litigation
disadvantage, departs from the Supreme Court’s observation that “Exemption 5 simply incorporates civil
discovery privileges[,]” including those “well recognized in the case law[,]” Weber, 465 U.S. at 799, and
disregards a clear congressional directive that the
government should receive the same discovery privileges as other parties.
Notwithstanding these concerns, the majority rejects the corollary because it is “not convinced that the
potential harm to the government warrants adopting
the consultant corollary’s broad reading of Exemption 5.” Ante at 20-21. Respectfully, this is insufficient
in light of the decades-long track record of courts uniformly upholding the government’s discovery privileges, which Congress expressly preserved by adopting Exemption 5. See Weber, 465 U.S. at 801 (“We do
not think that Congress could have so easily intended
Quoting Coastal States Gas Corp. v. Dep’t of Energy, 617 F.2d
854, 862 (D.C. Cir. 1980).

5

106a
that the weighty policies underlying discovery privileges could be [] easily circumvented [through a FOIA
request]”).6
The majority suggests that “absent the consultant
corollary, agencies can still avoid disclosure under Exemption 5 by keeping potentially privileged material
within the government.” Ante at 21. But that suggestion has it backwards. The government is keeping
APTMetrics’s work product, which is why the materials fall within the scope of the search for responsive
documents. If the documents were only possessed by
APTMetrics, they would not be subject to the FOIA at
all. Forsham, 445 U.S. at 186. If the majority means
that agencies can avoid disclosure by creating materials in-house, that theory fails to acknowledge that
dozens of federal agencies must rely on the expertise
of outside consultants to perform specialized tasks.
Regrettably, today’s opinion will likely dissuade agencies from seeking helpful expertise from outside consultants in the first place.
III.
There is nothing new or novel about the consultant corollary, as evidenced by the dearth of case law
supporting today’s decision. Circuit courts have been
applying the consultant corollary since at least 1971.
Curiously, the majority quotes Weber to justify its approach.
Ante at 14. But Weber is hardly supportive of the majority’s analysis. Indeed, contrary to the majority’s holding here, Weber explained that the plain language of Exemption 5 incorporated discovery privileges and allowed agencies to shield privileged materials. 465 U.S. at 799-801.

6

107a
Just five years after Congress enacted the FOIA, the
D.C. Circuit adopted the consultant corollary in
Soucie v. David, 448 F.2d 1067, 1078 n.44 (D.C. Cir.
1971) (explaining that an outside expert’s report
should “be treated as an intra-agency memorandum
of the agency which solicited it” for purposes of Exemption 5). Since that decision, the First, Second,
Fourth, Fifth, Eighth, and Tenth Circuits have
adopted the consultant corollary. See Gov’t Land
Bank v. Gen. Serv. Admin., 671 F.2d 663, 666 (1st Cir.
1982) (exempting from FOIA disclosure a property appraisal performed by independent contractor); Lead
Indus. Ass’n Inc. v. OSHA, 610 F.2d 70, 83 (2nd Cir.
1979) (exempting from FOIA disclosure private consultant’s analysis of lead levels provided to agency);
Hanson v. U.S. Agency for Int’l. Dev., 372 F.3d 286,
292-93 (4th Cir. 2004) (exempting from FOIA disclosure a document prepared by outside attorney as attorney work product); Hoover v. U.S. Dept. of the Interior, 611 F.2d 1132, 1137 (5th Cir. 1980) (holding that
an appraisal report by an outside expert constituted
an intra-agency document for purposes of Exemption 5); Brockway v. Dept. of Air Force, 518 F.2d 1184,
1194 (8th Cir. 1982) (exempting from FOIA disclosure
statements provided to agency by outside witnesses
due to pre-trial privilege); Stewart v. U.S. Dep’t of Interior, 554 F.3d 1236, 1245 (10th Cir. 2009) (holding
that consultant’s materials were properly withheld
pursuant to Exemption 5 because “[f]or purposes of [a
FOIA] analysis” the consultant “functioned akin to an
agency employee”).
The majority criticizes the first consultant corollary case, Soucie v. David, for failing to cite supportive
authority for the consultant corollary, Ante at 16, but

108a
Soucie was a case of first impression. See Fong v. Immigration & Naturalization Serv., 308 F.2d 191, 194
(9th Cir. 1962) (“The case is one of first impression
and neither party has been able to cite cases or decisions in point.”). More importantly, the majority
never rebuts the reasoning seven of our sister circuits
have proffered to justify this corollary to Exemption 5—i.e., that “[t]he Government may have a special need for the opinions and recommendations of
temporary consultants, and those individuals should
be able to give their judgments freely without fear of
publicity.” Soucie, 448 F.2d at 1078 n.44. Nor could it.
In the context of civil discovery, courts have long accepted that agencies benefit from the assistance of
outside experts and that the unnecessary risk of disclosure may put a damper on the government’s ability
to acquire the knowledge and expertise it requires.
See, e.g., CNA Fin. Corp. v. Donovan, 830 F.2d 1132,
1162 (D.C. Cir. 1987) (“[F]ederal agencies occasionally will encounter problems outside their ken, and it
clearly is preferable that they enlist the help of outside experts skilled at unravelling their knotty complexities. … To force an exposure is to stifle honest
and frank communication between agency and expert
by inhibiting their free exchange of thought”) (internal quotation marks omitted); 37A Am. Jur. 2d Freedom of Information Act § 182 (2019) (“Agencies have
a special need for the opinions and advice of temporary consultants, and the quality of consultants’ advice, like that of agency employees, may suffer if the
advice is made public.”). This case is a good example.
It is doubtful that decision makers at the FAA would
have engaged in a full and candid conversation about
the efficacy of the biometric assessment or ways it

109a
might be improved if they were aware that their communications would be subject to disclosure in the prospective class action litigation. And there is no question the public is best served if the most refined selection criteria are used to choose applicants best qualified to perform the exquisitely sensitive positions held
by air traffic controllers.7
The only circuit to express doubt about the consultant corollary is the Sixth Circuit. In Lucaj v. Federal Bureau of Investigation, 852 F.3d 541, 546-47
(6th Cir. 2017), the Sixth Circuit seemed to reject the
rule, except there were no consultants at issue in Lucaj. The plaintiff in Lucaj was arrested in Montenegro, and the FBI believed that he was connected to
terrorist attacks. Id. at 543. Because Lucaj believed
the United States played a role in his arrest, he sent
a FOIA request to the FBI. Id. at 543-44. The FBI
The fact that consultant-prepared materials may constitute
“intra-agency memorandums” for purposes of Exemption 5 does
not mean that agencies are obligated to search for responsive
FOIA materials held only by consultants. As the majority explains, the Supreme Court’s decision in Forsham v. Harris forecloses Rojas’s challenge to the FAA’s failure to search APTMetrics’s files in response to his FOIA request. I share the majority’s concern about the possibility that the FOIA could be circumvented by storing materials offsite with agency contractors.
But I agree with the majority that we are bound by Forsham,
and it dictates that Rojas cannot access APTMetrics’s offsite documents through a FOIA request.
7

I also agree with the majority’s conclusion that the FAA has
failed to show that it undertook an adequate in-house search.
See Ante at 9-11. However, the proper scope of a FOIA search is
distinct from whether materials falling within that scope may be
exempted from disclosure.

110a
produced some responsive documents, but it withheld
two that the Department of Justice had sent to foreign
law enforcement agencies. Id. at 544-45. The Sixth
Circuit rejected the FBI’s claim that the documents
were exempted from the FOIA and ordered them produced. In the process of issuing this ruling, the Sixth
Circuit purported to reject the consultant corollary,
id. at 546-47, but because no consultants or consultant-created materials were at issue in Lucaj, its brief
rejection of the consultant corollary can only be regarded as dictum. Notably, the majority is conspicuously wary of Lucaj, see Ante at 20 (disagreeing with
Lucaj’s review of applicable Supreme Court precedent), but it subscribes to the same “plain text” interpretation of “intra-agency” that the Sixth Circuit endorsed. By relying on a conclusion that was merely
dictum in Lucaj, today’s opinion creates a circuit split.
The majority also cites Department of Interior v.
Klamath Water Users Protective Association, 532 U.S.
1 (2001), but that case lends no support to its position.
In Klamath, the dispute involved competing claims by
the Klamath Tribe and others to certain water rights.
Id. at 5-6. The federal government solicited the Klamath Tribe’s input on a potential global resolution. Id.
Other litigants sought access to the Klamath Tribe’s
memorandum via the FOIA, and on appeal the Court
considered whether the Department of Interior could
rely on Exemption 5 and the consultant corollary to
withhold it. Id. at 6-7. The Court rejected the Department’s claim that it could withhold the Tribe’s settlement proposal under Exemption 5—but not because
it rejected the consultant corollary. On the contrary,
the Court acknowledged that in the cases where
courts have applied the consultant corollary, “the

111a
records submitted by outside consultants played essentially the same part in an agency’s process of deliberation as documents prepared by agency personnel might have done.” Id. at 10. The Court went on to
recognize that in those circumstances “consultants
may be enough like the agency’s own personnel to justify calling their communications ‘intra-agency.’” Id.
at 12. Ultimately, the Court rejected the Department
of Interior’s claimed exemption because the Tribe was
decidedly not acting on the government’s behalf. Far
from it, the Tribe was an interested party advocating
for its own interests. Id. at 11-15. Klamath is more a
benediction of the consultant corollary than an indictment—after all, the question whether the corollary is
correct is antecedent to whether it applies in a particular situation. Indeed, at least one circuit reads Klamath as the Court’s tacit affirmance of the consultant
corollary. See Stewart, 554 F.3d at 1244 (“In Klamath,
after recognizing that Exemption 5 extends to government agency communications with paid consultants,
the Court declined to analogize tribal communications to consultant communications.”).
At bottom, though seven circuit courts have expressly adopted the consultant corollary and the Supreme Court’s Klamath decision has responded favorably (albeit implicitly) to the rule, only one other circuit has rejected the corollary, in dictum. Against that
ledger, the majority marshals a crimped view of the
term “intra-agency” and reaches a conclusion that
casts aside the need to read the FOIA as an integrated
whole, as well as decades of persuasive authority.

112a
IV.
Today’s opinion creates a lopsided loophole that
prejudices only the federal government. Weber, 465
U.S. at 801. The consultant corollary fits logically
with the text and purpose of the FOIA and ensures
that government agencies can appropriately shield
privileged and sensitive materials from FOIA responses, just as they would in discovery. I would
adopt the consultant corollary, and respectfully dissent from the majority’s decision.

113a
APPENDIX C
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
)
)
)
JORGE ALEJANDRO
)
ROJAS,
)
Plaintiff,
)
)
v.
)
)
FEDERAL AVIATION
)
ADMINISTRATION,
)
Defendant. )

CASE NO. 2:15-cv05811-CBM-SSx
ORDER RE
MOTION FOR
SUMMARY
JUDGMENT

The matter before the Court is Defendant Federal
Aviation Administration’s (“FAA’s”) Motion for Summary Judgment (“Motion”). (Dkt. No. 25.) Having considered the Motion, Plaintiff’s “Response” (Dkt. No.
26), the FAA’s “Reply in Support” thereof (Dkt. No.
30), and the evidence and oral arguments presented
by both parties (Dkt. No. 31), the Court GRANTS the
FAA’s Motion.
I.

PROCEDURAL AND FACTUAL BACKGROUND

Plaintiff Jorge A. Rojas filed his complaint under
the Freedom of Information Act (“FOIA”), 5 U.S.C.
§ 552, alleging that the FAA’s Office of the Chief
Counsel violated FOIA when it failed to respond

114a
adequately to his May 20, 2015 request for information. (Dkt. No. 1 (“Compl.”) ¶¶ 1, 7, 8.)
Earlier that year, Plaintiff had applied for employment with the FAA to serve as an Air Traffic Control Specialist (“ATCS”). (Compl. ¶ 7, Ex. 1; Dkt.
No. 25-2, Declaration of Yvette A. Armstead, FAA, Assistant Chief Counsel, Employment and Labor Law
Division (“Decl. Armstead”) ¶¶ 3-4.) As part of the application process, Plaintiff was required to complete a
biographical assessment, which was used by the FAA
in 2015 to evaluate applicants for the ATCS position.
(Decl. Armstead ¶ 7, n.1.)
The biographical assessment was developed for
the FAA in 2013 by Applied Psychological Techniques, Inc. (“APTMetrics”), an outside consultant retained by the FAA to review the agency’s hiring processes, and to recommend and implement improvements. (Decl. Armstead ¶¶ 5, 6, 7, 7 n.1, 10; Dkt.
No. 27-1, Pls. Exhs. 1, 15, 16; Dkt. No. 25-1, Declaration of John C. Scott, Chief Operating Officer of APTMetrics (“Decl. Scott”) ¶¶ 3, 5, 9.) The first version of
the biographical assessment was used in 2014, and
was revised before the FAA began reviewing and hiring applicants in 2015. (Decl. Armstead ¶ 7, n.1, ¶ 10.)
Plaintiff received notice that, based on his responses to the biographical assessment, the FAA had
determined that he was not eligible for a 2015 ATCS
position. (See Compl. Ex. 5; Dkt. No. 27-1, Pl.’s
Exhs. 12, 18 at ¶ 21.) Thereafter, Plaintiff filed a
FOIA request with the FAA, requesting various records concerning his 2015 application for employment,
including information regarding the reason for his

115a
having “fail[ed] the biographical assessment,” “emails
and other communications … related to the scoring of
the biographical assessment,” and information regarding the “empirical validation of the [2015] biographical assessment.” (Compl. ¶ 7, Ex. 1.) The FAA
assigned his request to four offices within the FAA:
the Air Traffic Organization, the FOIA Program Management Branch, the Office of Human Resources, and
the Office of the Chief Counsel. (Id. ¶ 8; see also Dkt.
No. 27-1, Pl.’s Ex. 13.)
Plaintiff complains that the response he received
from the FAA’s Office of the Chief Counsel violates
FOIA. (Id.) Specifically, Plaintiff complains that the
FAA Office of the Chief Counsel failed to respond to
his request for:
Information regarding the empirical validation of the biographical assessment noted in
[Plaintiff’s] rejection notification. This includes any report, created by, given to, or regarding APTMetrics’ evaluation and creation and scoring of the assessment.
(Armstead Decl. ¶¶ 3-4, Ex. A; Compl. ¶ 7; see also
Compl. Ex. 1.)
In response to Plaintiff’s request, the FAA Office
of the Chief Counsel conducted a search for relevant
documents, and eventually responded to the request
on December 10, 2015 by issuing a determination letter. (Armstead Decl. ¶¶ 17, 18, 19, 20, Ex. D.) In the
letter, the FAA Office of the Chief Counsel indicated
to Plaintiff that it had conducted a search for “information regarding the empirical validation of the

116a
biographical assessment noted in the rejection notification” including “any report, created by, given to, or
regarding APTMetrics’ evaluation and creation and
scoring of the assessment.” (Armstead Decl. Ex. D.)
The FAA stated that, although responsive records had
been identified, they were being withheld pursuant to
FOIA Exemption 5 because they “were created by
APTMetrics[] at the direction of counsel in anticipation of litigation related to the [ATCS] hiring process.”
(Id.)
The FAA filed the responsive records under seal
for in camera review. (See Dkt. Nos. 34, 35.) The
Court has reviewed the records, and finds them to be
summaries of the ATCS hiring process, the 2015 biographical assessment, and the validation process and
results. (See Dkt. No. 25-3 at 13-16; Armstead Decl.
¶¶ 10-11, 18-20; Scott Decl. ¶¶ 7-8; Opp. At 12-14.)
The records were created by APTMetrics at the request of FAA’s counsel. (Id.)
In a stipulation filed March 24, 2016, the parties
asked the Court to vacate the scheduled settlement
conference deadline and instead allow the parties to
proceed to summary judgment. (Dkt. No. 23.) In support, the parties indicated their agreement that the
only issue in the case concerned the legal basis for the
FAA’s decision to withhold the responsive records.
(Dkt. No. 23 at 2-3; Declaration of Alarice M. Medrano
¶ 9.) The Court approved the parties’ stipulation (Dkt.
No. 24), and the FAA subsequently filed the present
Motion (Dkt. No. 25).

117a
II. LEGAL STANDARDS
FOIA requires that, unless an exemption applies,
“each agency, upon any request for records which
(i) reasonably describes such records, and (ii) is made
in accordance with published rules … , shall make the
records promptly available to any person.” 5 U.S.C.
§ 552(a)(3)(A). The statute mandates a policy of broad
disclosure, and gives individuals a judicially-enforceable right of access to such documents when production is properly requested. See 5 U.S.C. § 552(a). In
response to a FOIA request, an agency must conduct
a reasonable, good faith search for responsive records
using methods that can be reasonably expected to produce those records, to the extent they exist. 5 U.S.C.
§ 552(a)(3)(C); see also Hamdan v. U.S. Dep’t of Justice, 797 F.3d 759, 770 (9th Cir. 2015). Agencies may
withhold responsive records if they fall within any of
the nine statutory exemptions to FOIA’s disclosure requirement. 5 U.S.C. § 552(b); see also Spurlock v.
F.B.I., 69 F.3d 1010, 1015-16 (9th Cir. 1995).
“Most FOIA cases are resolved by the district
court on summary judgment, with the district court
entering judgment as a matter of law.” Animal Legal
Def. Fund v. F.D.A., No. __ F.3d __, 2016 WL 4578362
(9th Cir. Sept. 2, 2016); see also Fed. R. Civ. P. 56(a)
(summary judgment is appropriate when there is “no
genuine dispute as to any material fact and the movant is entitled to judgment as a matter of law.”). A
defendant is entitled to summary judgment in a FOIA
case when it demonstrates that no material facts are
in dispute, that it has conducted an adequate search
for responsive records, and that each responsive record that it has located has either been produced or is

118a
exempt from disclosure. Weisberg v. U.S. Dep’t of Justice, 627 F.2d 365, 368 (D.C. Cir. 1980); see also
Zemansky v. U.S. E.P.A., 767 F.2d 569, 571 (9th Cir.
1985). However, if genuine issues of material fact exist in a FOIA case, the district court should proceed to
a bench trial or adversary hearing, giving the parties
an opportunity to offer evidence. Animal Legal Def.
Fund, 2016 WL 4578362 at *2.
III. DISCUSSION
A. The FAA’s Search for Relevant Documents
The adequacy of an agency’s search under FOIA
is reviewed under a standard of reasonableness. Citizens Comm’n on Human Rights v. FDA, 45 F.3d 1325,
1328 (9th Cir. 1995). “The crucial issue is not whether
relevant documents might exist, but whether the
agency’s search was ‘reasonably calculated to discover
the requested documents.’” Church of Scientology Int’l
v. U.S. Dept. of Justice, 30 F.3d 224, 230 (1st Cir.
1994). To satisfy this burden, agencies may rely on
declarations, submitted in good faith, that explain in
reasonable detail the scope and method of the
agency’s search. Hamdan, 797 F.3d at 770; Zemansky,
767 F.2d at 571. Declarations submitted by an agency
to demonstrate the adequacy of its response to FOIA
requests are presumed to be in good faith, and therefore cannot be rebutted by purely speculative claims
about the existence and discoverability of additional
documents. Hamdan, 797 F.3d at 770 (citing Ground
Saucer Watch, Inc. v. C.I.A., 692 F.2d 770, 771 (D.C.
Cir. 1981)); Nat. Res. Def. Council v. U.S. Dep’t of Def.,
442 F. Supp. 2d 857, 878 (C.D. Cal. 2006) (citing

119a
SafeCard Servs., Inc. v. Sec. & Exch. Comm’n, 926
F.2d 1197, 1200 (D.C. Cir. 1991)).
In support of its Motion on this issue, the FAA offers the declaration of Yvette A. Armstead, Assistant
Chief Counsel of the FAA’s Employment and Labor
Law Division. (Decl. Armstead ¶ 1.) In her role as Assistant Chief Counsel, Ms. Armstead provides legal
advice related to the hiring process for ATCS positions at the FAA. (Id. ¶ 2.) In the declaration, Ms.
Armstead details the steps taken by her division of
the FAA to search for records responsive to Plaintiff’s
FOIA request. (Motion at 8; see also Decl. Armstead
¶ 17.) She declares that the search was “reasonably
calculated to obtain responsive records because the
attorneys who provided legal advice related to the revisions to the ATCS hiring process were asked to review their records.” (Decl. Armstead ¶ 17.)
Plaintiff states no objection to the evidence offered by the FAA, nor does he challenge the methods
employed by the FAA to conduct its search. Instead,
Plaintiff contends that “it is questionable whether the
FAA uncovered all the documents regarding the validation study” of the 2015 biographical assessment because the FAA previously published studies regarding
its other tests used to evaluate applicants for employment, and those studies were well over 100 pages and
consisted of multiple volumes. (Opp. at 11 (citing Pl.’s
Ex. 10).) Here, in comparison, the Vaughn Index provided by the FAA indicates that it only recovered
three documents regarding the biographical assessment used in 2015, totaling nine pages. (Id.) Plaintiff
argues that the FAA “may not be fully forthcoming
about this matter” based in part on what he argues

120a
are contradictory statements made by the FAA regarding the timing of the validation studies for the
2014 biographical assessment, and because the FAA
initially responded to Plaintiff’s FOIA request by incorrectly searching for records regarding the biographical assessment employed in 2014 as opposed to
2015. (Id. at 11 (citing Pl.’s Ex. 1; Pl.’s Ex. 14).)
These speculative claims regarding whether
FAA’s Office of the Chief Counsel has additional records responsive to Plaintiff’s FOIA request are insufficient to rebut the good faith afforded Ms. Armstead’s
declaration. As explained by Ms. Armstead, the FAA
made comprehensive changes to the ATCS selection
and hiring process beginning in 2012, and revised the
biographical assessment before the 2015 vacancy announcement. (Decl. Armstead ¶¶ 7, 10.) Plaintiff submits no evidence that the FAA validation studies employed in previous hiring years would be the same or
substantially similar to the studies of the 2015 biographical assessment. Moreover, Plaintiff fails to
demonstrate how the FAA’s initial search of the
wrong records conveys bad faith on the part of the
agency, when a second search was conducted and responsive records were located. Accordingly, Plaintiff
fails to meet his burden of presenting evidence to
show a genuine issue of material fact regarding
whether the search conducted by the FAA was adequate under FOIA.
B. The FAA’s Application of FOIA Exemption 5 to Responsive Records
Where responsive records are withheld pursuant
to an exemption to disclosure, see 5 U.S.C. § 552(b),

121a
the agency bears the burden of justifying its withholdings, see id. § 552(a)(4)(B). To do so, it must (1) identify each document withheld; (2) state the statutory
exemption claimed; and (3) explain how disclosure
would damage the interests protected by the claimed
exemption. Citizens Comm’n on Human Rights, 45
F.3d at 1326 n.1; see also Spurlock, 69 F.3d at 1012
n.1 (citing Vaughn v. Rosen, 484 F.2d 820, 828 (D.C.
Cir. 1973)). Here, the FAA argues that it is entitled to
summary judgment because the records it withheld,
identified in a Vaughn Index, constitute privileged attorney work-product and attorney-client communications, and are thus protected under FOIA Exemption
5.
Under FOIA Exemption 5, set forth at 5 U.S.C.
§ 552(b)(5), an agency may withhold documents that
constitute “‘inter-agency or intra-agency memorandums or letters which would not be available by law
to a party other than an agency in litigation with the
agency.’” Dep’t of Inter. v. Klamath Water Users Prot.
Ass’n, 532 U.S. 1, 8 (2001) (quoting 5 U.S.C.
§ 552(b)(5)). To fall within this privilege, a document
must satisfy two conditions: (1) its source must be a
government agency, and (2) it must fall within the
ambit of a privilege against discovery under judicial
standards that would govern litigation against the
agency that holds it. Id. Exemption 5 thus protects
documents from disclosure that would be covered by
the executive deliberative process privilege, attorney
work-product privilege, and attorney-client privilege.
Pac. Fisheries, Inc. v. United States, 539 F.3d 1143,
1148 & n.1 (9th Cir. 2008). The agency’s burden of justifying its withholding of records may be sustained by
submitting declarations that provide a clear and

122a
detailed analysis of the requested documents and the
agency’s reasons for invoking the exemption. See Lion
Raisins v. U.S. Dep’t of Agric., 354 F.3d 1072, 1082
(9th Cir. 2004) (overruled on other grounds).
The FAA offers the Vaughn Index and declarations of Ms. Armstead and John C. Scott, Chief Operating Officer of APTMetrics, to support its argument
that the records in the Office of the Chief Counsel’s
possession, withheld under Exemption 5, were created by APTMetrics at the request of counsel in response to the FAA having received “proposed notice of
suit letters from an attorney affiliated with an interest group alleging that the FAA’s hiring changes
amounted to discrimination” and learning that unsuccessful applicants were considering filing, or had filed
complaints addressing the FAA’s hiring practices.
(Decl. Armstead ¶¶ 12-13, 22; see also id. ¶¶ 8-13, 1819, 23; Motion at 12; Reply in Support at 4-5; Decl.
Scott ¶¶ 6-8.)
The FAA further argues that the documents are
protected under the attorney-client privilege doctrine
because they include “records between counsel and
client, including legal advice of counsel and/or records
that were not disclosed outside the attorney-client relationship.” (Motion at 13; see also id. (“Because these
communications contained legal advice, the agency
properly withheld the records as attorney-client privileged.”).) The FAA relies on the argument that, as a
consultant, APTMetrics “stood in the shoes” of FAA.
(Reply in Support at 8; see also Decl. Armstead ¶ 6;
Decl. Scott ¶ 9.)

123a
The Court finds that the records withheld by the
FAA regarding the 2015 biographical assessment constitute inter-agency memoranda created by a government agency. Although the records were composed by
APTMetrics, courts have upheld the application of
FOIA Exemption 5 to materials composed and supplied by outside contractors. See, e.g., Klamath, 532
U.S. at 10-11; Sakamoto v. E.P.A., 443 F. Supp. 2d
1182, 1191 (N.D. Cal. 2006).
The Court now considers whether the records constitute privileged attorney work-product or attorneyclient communications.
i.

Exemption Based on the Attorney
Work-Product Doctrine

The attorney work-product doctrine protects from
discovery documents and tangible things, or compilations of materials, prepared by a party, his representative, or an agent in anticipation of litigation.
United States v. Richey, 632 F.3d 559, 567 (9th Cir.
2011) (citing Fed. R. Civ. P. 26(b)). Thus, for records
to qualify for Exemption 5 protection under the attorney work-product doctrine, the documents must (1) be
prepared in anticipation of litigation or for trial; and
(2) be prepared by or for another party or by or for
that other party’s representative. Id.
In circumstances where a document was not prepared exclusively for litigation, the Ninth Circuit employs the “because of” test. Id. These so-called dual
purpose documents will be deemed prepared because
of litigation, and thus protected from disclosure under
the attorney work-product doctrine, if in light of the

124a
nature of the document and the factual situation in a
particular case, the document can be fairly said to
have been prepared or obtained because of the prospect of litigation. Id. In applying the “because of”
test, courts must consider the totality of the circumstances and determine whether the document was
created because of anticipated litigation, and would
not have been created in substantially similar form
but for the prospect of litigation. Id.
Plaintiff argues that the records withheld by the
FAA do not constitute protected attorney work product for a number of reasons. First, Plaintiff argues
that the summaries were not created in anticipation
of litigation. (Opp. at 10.) In support, Plaintiff offers
evidence that the FAA had previously conducted and
published online validation studies of the tests it formerly used to evaluate applicants for ATCS positions
without threat of litigation. (Id.) However, it is undisputed that the former tests used by the FAA before
2014 to screen applicants differed in material respects
from the biographical assessments employed in 2014
and 2015. (Pl.’s Ex. 1.) Therefore, the fact that the
FAA may have published validation studies regarding
the tests used by the FAA in 2001 and 2013 (see Pl.’s
Exs. 1, 10) does not indicate that summaries prepared
for the FAA by APTMetrics were not created in anticipation of litigation. Plaintiff’s other arguments—
based on evidence that the FAA continues to evaluate
and validate its hiring processes, that APTMetrics
was originally hired to work only until the end of
2014, and that APTMetrics’s website states that validation studies should be disclosed to ensure a transparent system (Opp. at 10, 15, 21 (citing Dkt. No. 271, Pl.’s Exhs. 1, 3, 4, 5, 6, 12, 15, 16, 17))—also do not

125a
create a genuine issue of material fact regarding
whether the documents at issue here were created in
anticipation of litigation. (See also Dkt. No. 27-1,
Ex. 15 (Memorandum from FAA dated February 11,
2016, indicating that the FAA had engaged APTMetrics, an external consulting firm, to assist the
agency in evaluating the FAA’s hiring procedures).)
Second, Plaintiff argues that work product created by APTMetrics cannot constitute protected attorney work product because APTMetrics is neither
FAA’s attorney nor the client. (Opp. at 12-13.) Documents may be considered attorney work product, however, even where they are created by consultants at
the request of counsel. See Sakamoto, 443 F. Supp. 2d
at 1191 (upholding agency’s invocation of Exemption
5 to protect documents prepared by private contractor
hired to perform audit for the agency). Therefore, the
records still qualify for protection under Exemption 5,
despite the fact that they were created by APTMetrics, who was hired to provide consultation to the
FAA regarding hiring practices.
Third, Plaintiff argues that the records are not
subject to protection under the work-product doctrine
because they “merely reveal facts,” and underlying
facts are not protected by the attorney work-product
doctrine. (Opp. at 13-14.) However, under FOIA, an
agency need not segregate and disclose a document’s
factual contents if the document itself is protected
from disclosure pursuant to the attorney work-product privilege. Pac. Fisheries, Inc., 539 F.3d at 1148. In
determining whether a document is protected under
Exemption 5, courts consider whether the document
would be routinely disclosed upon a showing of

126a
relevance during discovery. FTC v. Grolier, Inc.,
462 U.S. 19, 26 (1983). Under the rules of civil discovery, parties seeking discovery of factual work product
are required to make a showing of “substantial need”
and “undue hardship.” Id. at 27. Therefore, because
such documents are not “routinely” or “normally” disclosed during discovery, they are protected by FOIA
Exemption 5. Id.
Fourth, Plaintiff argues that the records at issue
could not have been prepared in anticipation of litigation because “[t]here was no litigation that could have
been anticipated in relation to the validation study or
its summary.” (Opp. at 14; see also id. 14-15.) However, it is undisputed that the FAA received notice as
early as 2013 that the agency could be subject to litigation as a result of its use of the biographical assessments in 2014 and 2015, including litigation based on
allegations that the biographical assessment resulted
in discriminatory hiring practices. (See Decl. Armstead ¶¶ 8, 9, 12, 13, 22.) The attorney work-product
doctrine protects documents prepared in contemplation of litigation, including administrative proceedings. NLRB v. Sears, Roebuck & Co., 421 U.S. 132,
154 (1975); Schoenman v. F.B.I., 573 F. Supp. 2d 119,
143 (D.D.C. 2008).
Fifth, Plaintiff argues that the records were not
created in anticipation of litigation because the FAA
was required by law to conduct the studies and prepare the documents requested. (Opp. at 15-18.) However, the statutes and regulations cited by Plaintiff in
support of this argument, specifically 42 U.S.C.

127a
§ 2000e-2(h) and 29 C.F.R. § 1607, impose no such requirement.1
Sixth, Plaintiff argues that the records should not
be protected under the attorney work-product doctrine because they were created by APTMetrics for
the FAA in the ordinary course of business. (Opp. at
15-18.) Although documents prepared in the ordinary
course of business are not protected under the doctrine, see United States v. Adlman, 134 F.3d 1194,
1202 (2d Cir. 1998), in the Ninth Circuit, documents
created in anticipation of litigation do not lose their
protection merely because they were also created to
assist with a business decision. In re Grand Jury Subpoena (Mark Torf/Torf Environ. Mgmt.), 357 F.3d
900, 910 (9th Cir. 2004). These so-called “dual purpose” documents can fall within the ambit of the
work-product doctrine if “their litigation purpose so
permeates any non-litigation purpose that the two
purposes cannot be discretely separated from the factual nexus as a whole.” Id. Given the lack of evidence
that the summaries were created in the ordinary
course of business, and evidence supporting the conclusion that they were instead created in response to
expected litigation, there is no genuine dispute of

The Equal Employment Opportunity Commission’s Uniform
Guidelines on Employee Selection Procedures (“Uniform Guidelines”), codified at 29 C.F.R. § 1607, are designed to help agencies adhere to the anti-discrimination requirements of Title VII
of the Civil Rights Act of 1964, 42 U.S.C. § 2000e-2(h). The Uniform Guidelines “are not legally binding.” Clady v. Los Angeles
Cty., 770 F.2d 1421, 1428 (9th Cir. 1985).
1

128a
material fact that these records remain protected
from disclosure under Exemption 5.
Seventh, Plaintiff argues that the Court should
find that his “substantial need” for the records and
the “undue hardship” of acquiring that information
balances in favor of disclosure, despite the fact that
the records may be privileged. (Opp. at 18-19.) In support, Plaintiff cites to cases where courts have ordered
the production of privileged information be disclosed
under the rules of discovery. These cases, however, do
not consider that, under FOIA, this Court’s authority
to order the disclosure of records is “dependent on a
showing that an agency has (1) improperly (2) withheld (3) agency records,” Spurlock, 69 F.3d at 1015
(quoting Kissinger v. Reporters Committee for Freedom of the Press, 445 U.S. 136, 150 (1980)) (internal
quotation marks omitted). Congress “did not invite a
judicial weighing of the benefits of evils of disclosure
on a case-by-case basis,” such that district courts can
order that records properly withheld under FOIA be
produced where the plaintiff demonstrates “substantial need.” F.B.I. v. Abramson, 456 U.S. 615, 631
(1982); see also Sears, Roebuck & Co., 421 U.S. at 149
n.16.
Finally, Plaintiff argues that the work-product
privilege does not apply in this case because the FAA
has previously published validation studies. (Opp. at
20-22.) However, there is no evidence that the summaries withheld under Exemption 5 were previously
disclosed by the FAA. Moreover, even if the FAA has
previously disclosed its hiring processes, including
the fact that it validates its hiring procedures, that
does not preclude Exemption 5 protection for records

129a
regarding the same subject matter that were created
in anticipation of litigation.
The FAA has satisfied its burden of demonstrating, through the detailed declarations of Ms. Armstead and Mr. Scott, and through the Vaughn Index
attached to the Motion, that the records the FAA
withheld under Exemption 5 are protected by the attorney work-product privilege.
ii. Exemption for Attorney-Client Privileged Communications
An eight-part test determines whether information is covered by the attorney-client privilege:
(1) Where legal advice of any kind is sought
(2) from a professional legal adviser in his
capacity as such, (3) the communications relating to that purpose, (4) made in confidence (5) by the client, (6) are at his instance
permanently protected (7) from disclosure
by himself or by the legal adviser, (8) unless
the protection be waived.
United States v. Graf, 610 F.3d 1148, 1156 (9th Cir.
2010). The privilege encompasses confidential facts
communicated by the client to the attorney, as well as
opinions rendered by the attorney based on those confidential facts. United States v. Martin, 278 F.3d 988,
999 (9th Cir. 2002).
The FAA offers no evidence that the records withheld involve a client seeking legal advice from a professional legal adviser. Although the records were

130a
prepared by APTMetrics at the request of the Office
of Chief Counsel, they contain no request for, or discussion of, legal advice. Instead, the Office of Chief
Counsel asked APTMetrics “to summarize elements
of [the] validation work related to the use of the [biographical assessment] as an instrument in the ATCS
selection process.” (Armstead Decl. ¶ 10.) The Court
finds no evidence that legal advice was sought in connection with those records. Accordingly, the withheld
records do not fall within the scope of the attorneyclient privilege.
C. Request for Referral for Independent
Investigation
Plaintiff requests that this matter be referred for
an independent investigation pursuant to 5 U.S.C.
§ 552(a)(4)(F). (See Compl. ¶¶ 30-31.) This statute directs the Merit Systems Protection Board’s Special
Counsel to initiate an investigation to determine
whether disciplinary action is warranted against an
agency officer or employee who improperly withheld
nonexempt records. Having found that the records
were properly withheld under Exemption 5, the Court
denies Plaintiff’s request.

131a
IV. CONCLUSION
The FAA has met its burden of demonstrating
that (1) there are no material facts in dispute; (2) that
it has conducted an adequate search for responsive
records; and (3) that each of the responsive records it
has located has either been produced or is exempt
from disclosure. Zemansky, 767 F.2d at 571. The
Court therefore GRANTS Defendant’s Motion for
Summary Judgment.

IT IS SO ORDERED.

DATED: November 10, 2016
/s/ Consuelo B. Marshall
CONSUELO B. MARSHALL
UNITED STATES DISTRICT JUDGE

132a
APPENDIX D
5 U.S.C. § 552
Public information; agency rules, opinions, orders,
records, and proceedings
***
(b) This section does not apply to matters that are-(1)(A) specifically authorized under criteria
established by an Executive order to be kept
secret in the interest of national defense or
foreign policy and (B) are in fact properly classified pursuant to such Executive order;
(2) related solely to the internal personnel
rules and practices of an agency;
(3) specifically exempted from disclosure by
statute (other than section 552b of this title),
if that statute-(A)(i) requires that the matters be
withheld from the public in such a manner as to leave no discretion on the issue; or
(ii) establishes particular criteria for
withholding or refers to particular types
of matters to be withheld; and
(B) if enacted after the date of enactment of the OPEN FOIA Act of 2009,
specifically cites to this paragraph.

133a
(4) trade secrets and commercial or financial
information obtained from a person and privileged or confidential;
(5) inter-agency or intra-agency memorandums or letters that would not be available by
law to a party other than an agency in litigation with the agency, provided that the deliberative process privilege shall not apply to records created 25 years or more before the date
on which the records were requested;
(6) personnel and medical files and similar
files the disclosure of which would constitute a
clearly unwarranted invasion of personal privacy;
(7) records or information compiled for law enforcement purposes, but only to the extent
that the production of such law enforcement
records or information (A) could reasonably be
expected to interfere with enforcement proceedings, (B) would deprive a person of a right
to a fair trial or an impartial adjudication,
(C) could reasonably be expected to constitute
an unwarranted invasion of personal privacy,
(D) could reasonably be expected to disclose
the identity of a confidential source, including
a State, local, or foreign agency or authority or
any private institution which furnished information on a confidential basis, and, in the
case of a record or information compiled by
criminal law enforcement authority in the
course of a criminal investigation or by an
agency conducting a lawful national security

134a
intelligence investigation, information furnished by a confidential source, (E) would disclose techniques and procedures for law enforcement investigations or prosecutions, or
would disclose guidelines for law enforcement
investigations or prosecutions if such disclosure could reasonably be expected to risk circumvention of the law, or (F) could reasonably
be expected to endanger the life or physical
safety of any individual;
(8) contained in or related to examination, operating, or condition reports prepared by, on
behalf of, or for the use of an agency responsible for the regulation or supervision of financial institutions; or
(9) geological and geophysical information and
data, including maps, concerning wells.
Any reasonably segregable portion of a record shall be
provided to any person requesting such record after
deletion of the portions which are exempt under this
subsection. The amount of information deleted, and
the exemption under which the deletion is made, shall
be indicated on the released portion of the record, unless including that indication would harm an interest
protected by the exemption in this subsection under
which the deletion is made. If technically feasible, the
amount of the information deleted, and the exemption
under which the deletion is made, shall be indicated
at the place in the record where such deletion is made.
***

